            SPECIAL REPORTS RELATING TO THE
         FEDERAL EMPLOYEES' COMPENSATION ACT
                  SPECIAL BENEFIT FUND


           APRIL 30, 2002 AND SEPTEMBER 30, 2002




                                              U.S. Department of Labor
                                             Office of Inspector General
                                       Report Number: 22-03-001-04-431
                                          Date Issued: November 8, 2002

                                                      Carmichael
                                                   Brasher Tuvell
Certified Public Accountants                         & Company
These reports were prepared by Carmichael, Brasher, Tuvell & Company, Certified Public Accountants,
under contract to the Inspector General, and, by acceptance, it becomes a report of the Office of Inspector
General.



                                                                    _______________________________
                                                                    Deputy Inspector General for Audit
                                                                          Carmichael
                                                                       Brasher Tuvell
Certified Public Accountants                                            & Company
                                    Table of Contents

Acronyms                                                                             i


I.     A. Independent Auditors' Report on the Schedule of Actuarial Liability,
              Net Intra-Governmental Accounts Receivable and Benefit Expe nse        1

       B. Schedule of Actuarial Liability, Net Intra-Governmental Accounts
              Receivable and Benefit Expense                                         2

II.    A. Independent Accountants' Report on Applying Agreed-Upon Procedures         7

       B. Schedules
             1. Schedule of Actuarial Liability by Agency                            9
             2. Schedule of Net Intra -Governmental Accounts Receivable by Agency   11
             3. Schedule of Benefit Expense by Agency                               13

       C. Agreed-Upon Procedures and Results
            Summary                                                                 15
            Actuarial Liability                                                     16
            Net Intra-Governmental Accounts Receivable                              21
            Benefit Expense                                                         23

III.   A. Independent Service Auditors' Report                                      25

       B. Division of Federal Employees' Compensation’s Policies and Procedures
             Overview of Services Provided                                          27
             Overview of Control Environment                                        31
             Overview of Transaction Processing                                     35
             Overview of Computer Information Systems                               41
             Control Objectives and Related Policies and Procedures                 44
             User Control Considerations                                            44

       C.    Information Provided by the Service Auditor
             Tests of Control Environment Elements                                  45
             Sampling Methodology                                                   46
             Control Objectives, Related Policies and Procedures,
                 and Tests of Described Policies and Procedures                     50
             General Computer Controls                                              51
             Transaction Processing Controls                                        66
                                    ACRONYMS



ACPS      Automated Compensation Payment System
ACS       Affiliated Computer Services, Inc.
ADP       Automatic Data Processing
AID       Agency for International Development
BPS       Bill Payment System
BLS       Bureau of Labor Statistics
CBS       Chargeback System
CE        Claims Examiner
CFO       Chief Financial Officer
CFR       Code of Federal Regulations
CMF       Case Manageme nt File System
COLA      Cost of Living Allowance
COP       Continuation of Pay
CPI       Consumer Price Index
CPI-U     Consumer Price Index for all Urban Consumers
CPI-Med   Consumer Price Index for Medical
DITMS     Division of Information Technology Management and Services
DCE       Designated Claims Examiner
DD        District Director
DFEC      Division of Federal Employees' Compensation
DMA       District Medical Advisor
DMD       District Medical Director
DO        District Office
DOL       United States Department of Labor
DOLAR$    Department of Labor Accounting and Related Systems
DPPS      Division of Planning, Policy and Standards
DRP       Disaster Recovery Plan
EDP       Electronic Data Processing
EPA       Environmental Protection Agency
ESA       Employment Standards Administration
FCS       Fund Control System
FECA      Federal Employees' Compensation Act
FEMA      Federal Emergency Management Agency
FISCAM    Federal Information System Controls Application Manual
FMFIA     Federal Managers' Financial Integrity Act
GSA       General Services Administration




                                           i
                                     ACRONYMS


HBI       Health Benefit Ins urance
HHS       U.S. Department of Health and Human Services
HUD       U.S. Department of Housing and Urban Development
IBNR      Incurred But Not Reported
IS        Information Systems
LBP       Liability Benefits Paid (ratio)
LWEC      Loss of Wage Earning Capacity
NASA      National Aeronautics and Space Administration
NRC       Nuclear Regulatory Commission
NSF       National Science Foundation
OIG       Office of Inspector General
OLI       Optional Life Insurance
OMAP      Office of Management and Planning
OMB       Office of Management and Budget
OPAC      On-line Payment and Collection System
OPM       Office of Personnel Management
OWCP      Office of Workers' Compensation Programs
RS        Rehabilitation Specialist
SAS 70    Statement on Auditing Standards, Number 70
SBA       Small Business Administration
SCE       Senior Claims Examiner
SDLC      System Development Life Cycle
SFFAS     Statement of Federal Financial Accounting Standards
SOL       Solicitor of Labor
SSA       Social Security Administration
SunGard   SunGard eSourcing, Inc.
TTD       Temporary Total Disability
U.S.C.    United States Code
USPS      United States Postal Service
VA        U.S. Department of Veterans Affairs




                                            ii
[This page intentionally left blank.]
                                                                                     Carmichael
                                                                                  Brasher Tuvell
Certified Public Accountants                                                       & Company
                                                                                           678-443-9200
                                                                                 Facsimile 678-443-9700
                                                                                       www.cbtcpa.com
                                    SECTION IA
                       INDEPENDENT AUDITORS' REPORT ON THE
                         SCHEDULE OF ACTUARIAL LIABILITY,
                  NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                               AND BENEFIT EXPENSE

Victoria A. Lipnic, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor,
General Accounting Office, Office of Management and Budget and Other Specified Agencies:

We have audited the accompanying Schedule of Actuarial Liability, Net Intra-Governmental Accounts
Receivable and Benefit Expense (the Schedule) of the Federal Employees' Compensation Act Special
Benefit Fund as of and for the year ended September 30, 2002. This schedule is the responsibility of
the U.S. Department of Labor's management. Our responsibility is to express an opinion on this
schedule based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States
of America, the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States, and the applicable provisions of OMB
Bulletin 01-02, Audit Requirements for Federal Financial Statements. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the Schedule of Actuarial
Liability, Net Intra-Governmental Accounts Receivable and Benefit Expense is free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the Schedule of Actuarial Liability, Net Intra-Governmental Accounts Receivable and
Benefit Expense. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall schedule presentation. We believe
that our audit provides a reasonable basis for our opinion.

In our opinion, the Schedule of Actuarial Liability, Net Intra-Governmental Accounts Receivable and
Benefit Expense referred to above presents fairly, in all materia l respects, the actuarial liability, net
intra- governmental accounts receivable and benefit expense of the Federal Employees' Compensation
Act Special Benefit Fund as of and for the year ended September 30, 2002, in conformity with
accounting principles ge nerally accepted in the United States of America.

This report is intended solely for the information and use of the U.S. Department of Labor, General
Accounting Office, Office of Management and Budget and those Federal agencies listed in Section
IIB of this report and is not intended to be and should not be used by anyone other than these specified
parties.




October 31, 2002
                                                     1
               1647 Mount Vernon Road, Dunwoody Exchange, Atlanta, Georgia 30338
                              SECTION IB
                     U.S. DEPARTMENT OF LABOR
              EMPLOYMENT STANDARDS ADMINISTRATION
              FEDERAL EMPLOYEES' COMPENSATION ACT
                        SPECIAL BENEFIT FUND
                 SCHEDULE OF ACTUARIAL LIABILITY,
          NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                        AND BENEFIT EXPENSE
          AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2002


                                                                             (Dollars in
                                                                            Thousands)


Actuarial Liability                                                    $ 24,807,367


Net Intra- governmental Accounts Receivable                                $ 3,544,179


Benefit Expense                                                            $ 2,120,262




                       See independent auditors' report.
           The accompanying notes are an integral part of this schedule.
                                         2
                                SECTION IC
              NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
              NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                           AND BENEFIT EXPENSE
              AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2002

1.   SIGNIFICANT ACCOUNTING POLICIES

     a.   Basis of Presentation

     This schedule has been prepared to report the actuarial liability, net intra-governmental
     accounts receivable and benefit expense of the Federal Employees' Compensation Act (FECA)
     Special Benefit Fund, as required by the CFO Act of 1990. The Special Benefit Fund was
     established by the Federal Employees' Compensation Act to provide for the financial needs
     resulting from compensation and medical benefits authorized under the Act. The U.S.
     Department of Labor (DOL), Employment Standards Administration (ESA) is charged with
     the responsibility of operating the Special Benefit Fund under the provisions of the Act. The
     schedule has been prepared from the accounting records of the Special Benefit Fund.

     The actuarial liability, net intra-governmental accounts receivable and benefit expense of the
     Special Benefit Fund have been considered specified accounts for the purpose of this special
     report and have been reported thereon. ESA is responsible for providing annual data to the
     CFO Act and other specified agencies. FECA's annual data is defined as the actuarial liability
     of the Special Benefit Fund. This annual data is necessary for the CFO Act and other specified
     agencies to support and prepare their respective financial statements.

     The actuarial liability for future workers' compensation benefits is an accrued estimate as of
     September 30, 2002. The net intra- governmental accounts receivable is the amount due from
     Federal agencies for benefit payments paid to employees of the employing agency. The net
     intra- governmental accounts receivable includes amounts which were billed to the employing
     agencies through June 30, 2002, but not paid as of September 30, 2002, including prior years,
     if applicable, plus the accrued receivable for benefit payments not yet billed for the period
     July 1, 2002 through September 30, 2002, less credits due from the public. Benefit expense
     consists of benefits paid and accrued for the period from October 1, 2001 to
     September 30, 2002, plus the net change in the actuarial liability for the year.

     Benefit payments are intended to provide income and medical cost protection to covered
     Federal civilian employees injured on the job, employees who have incurred a work-related
     occupational disease and beneficiaries of employees whose death is attributable to job-related
     injury or occupational disease. The actuarial liability is computed from the benefits paid
     history. The benefits paid, inflation and interest rate assumptions, and other economic factors
     are applied to the actuarial model that calculates the liability estimate.




                                                3
                                SECTION IC
              NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
              NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                           AND BENEFIT EXPENSE
              AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2002

     b.    Basis of Accounting

     The accounting and reporting policies of the Federal Employees' Compensation Act Special
     Benefit Fund relating to the Schedule conforms to accounting principles generally accepted in
     the United States of America.

     Statement of Federal Financial Accounting Standards (SFFAS) Number 5, Section 138,
     Accounting for Liabilities of the Federal Government, requires that a contingent liability be
     recognized when three conditions are met. First, a past event or exchange transaction has
     occurred. Second, a future outflow or other sacrifice of resources is probable. Finally, the
     future outflow or sacrifice of resources is measurable. Claims that have been incurred but not
     reported (IBNR) are included in the actuarial liability. Therefore, the actuarial liability
     represents the estimated present value of future compensation and medical payments based
     upon approved claims, plus a component for incurred but not reported claims.


2.   ACTUARIAL LIABILITY (FUTURE WORKERS' COMPENSATION BENEFITS)

     The Special Benefit Fund was established under the authority of the Federal Employees'
     Compensation Act to provide income and medical cost protection to covered Federal civilian
     employees injured on the job, emplo yees who have incurred a work-related occupational
     disease and beneficiaries of employees whose death is attributable to a job-related injury or
     occupational disease. The fund is reimbursed by other Federal agencies for the FECA benefit
     payments made on behalf of their workers.

     The actuarial liability for future workers’ compensation reported on the schedule includes the
     expected liability for death, disability, medical and miscellaneous costs for approved cases.
     The liability is determined using a method that utilizes historical benefit payment patterns
     related to a specific incurred period to predict the ultimate payments related to that period.

     Consistent with past practice, these projected annual benefit payments have been discounted to
     present value using the Office of Management and Budget's (OMB) economic assumptions for
     10-year Treasury notes and bonds. The interest rate assumptions utilized for discounting was
     5.2% in year 1 and thereafter.

     To provide more specifically for the effects of inflation on the liability for future workers'
     compensation benefits, wage inflation factors (cost of living allowance or COLA) and medical
     inflation factors (consumer price index- medical or CPI-Med) are applied to the calculation of
     projected future benefits. These factors are also used to adjust the historical payments to
     current year constant dollars. The liability is determined assuming an annual payment at mid-
     year.
                                               4
                               SECTION IC
             NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
             NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                          AND BENEFIT EXPENSE
             AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2002

    The compensation COLA and the CPI-Med used in the model's calculation of estimates were
    as follows:

                           FY        COLA          CPI-Med

                          2003       1.80%         4.31%
                          2004       2.67%         4.01%
                          2005+      2.40%         4.01%

    The medical inflation rates presented represent an average of published quarterly rates
    covering the benefit payment fiscal year. The compensation factors presented are the blended
    rates used by the model rather than the published March 1 FECA-COLA factor from which the
    blended rates are derived.

3. NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

    Net intra-governmental accounts receivable is the total of the amounts billed to Federal
    agencies through June 30, 2002 but had not been paid as of September 30, 2002, including
    prior year’s amounts billed, if applicable, plus the accrued receivable for benefit payments not
    yet billed for the period July 1, 2002 through September 30, 2002, less applicable credits. The
    Special Benefit Fund also receives an appropriation for special cases where employing
    agencies and older cases are not charged for benefit payments.

    Federal agencies either receive funding for FECA benefits as part of their annual appropriation
    or if the agency does not receive an appropriation specifically for FECA benefits, the amount
    of the current chargeback billing is recognized as an expense.

    In addition, certain corporations and instrumentalities are assessed under the Federal
    Employees' Compensation Act for a fair share of the costs of administering disability claims
    filed by their employees. The fair share costs are included in the net intra-governmental
    accounts receivable.




                                               5
                                SECTION IC
              NOTES TO THE SCHEDULE OF ACTUARIAL LIABILITY,
              NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE
                           AND BENEFIT EXPENSE
              AS OF AND FOR THE YEAR ENDED SEPTEMBER 30, 2002


4.   BENEFIT EXPENSE

     Benefits paid and accrued consists of benefit payments for compensation for lost wages,
     schedule awards, death benefits and medical benefits paid and accrued under FECA for the
     period October 1, 2001 through September 30, 2002, plus the net change in the actuarial
     liability for the year. The amount paid and accrued for compensation for lost wages, schedule
     awards, death benefits and medical benefits totaled $2.291 billion. The net change in the
     actuarial liability for the year was a decrease of $187 million. Benefit expense for the fiscal
     year was $2.120 billion.




                                                6
                                                                                  Carmichael
                                                                               Brasher Tuvell
Certified Public Accountants                                                    & Company
                                                                                        678-443-9200
                                                                              Facsimile 678-443-9700
                                                                                    www.cbtcpa.com

                                     SECTION IIA
                         INDEPENDENT ACCOUNTANTS' REPORT
                        ON APPLYING AGREED-UPON PROCEDURES


Victoria A. Lipnic, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor,
General Accounting Office, Office of Management and Budget and Other Specified Agencies:

We have performed the procedures described in the Agreed-Upon Procedures and Results, Section
IIC, which were agreed to by the U.S. Department of Labor, General Accounting Office, Office of
Management and Budget, the CFO Act agencies and other specified agencies listed in the Schedules
of Actuarial Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency and
Benefit Expense by Agency, Section IIB-1, 2 and 3 (the parties specified) of this special report, solely
to assist you and such agencies with respect to the accompanying Schedules of Actuarial Liability by
Agency, Net Intra-Governmental Accounts Receivable by Agency and Benefit Expense by Agency
(Section IIB-1, 2 and 3, respectively) of the Federal Employees' Compensation Act Special Benefit
Fund as of and for the year ended September 30, 2002.

The Department of Labor is responsible for the Schedules (Section IIB-1, 2 and 3). The Schedule of
Actuarial Liability by Agency at September 30, 2002, represents the present value of the estimated
future benefits to be paid pursuant to the Federal Employees' Compensation Act. The Schedule of Net
Intra-Governmental Accounts Receivable by Agency is the total of the amounts billed to Federal
agencies through June 30, 2002 which had not yet been paid as of September 30, 2002 plus the
accrued receivable for benefit payments not yet billed for the period July 1, 2002 through
September 30, 2002. The Schedule of Benefit Expense by Agency is the benefits paid and accrued for
the fiscal year ended September 30, 2002, plus the net change in the actuarial liability for the year.

This agreed- upon procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants and with Government Auditing
Standards, issued by the Comptroller General of the United States.

An actuary was engaged to perform certain procedures relating to the actuarial liability as described in
Section IIC.

We express no opinion on the Federal Employees' Compensation Act Special Benefit Fund's internal
controls over financial reporting or any part thereof.




                                                   7
              1647 Mount Vernon Road, Dunwoody Exchange, Atlanta, Georgia 30338
The sufficiency of the procedures is solely the responsibility of the parties specified in this report.
Consequently, we make no representation regarding the sufficiency of the procedures described in
Section IIC either for the purpose for which this report has been requested or for any other purpose.
Our agreed-upon procedures and results are presented in Section IIC of this report.

We were not engaged to, and did not perform an audit of the Schedules of Actuarial Liability by
Agency, Net Intra-Governmental Accounts Receivable by Agency and Benefit Expense by Agency,
the objective of which is the expression of an opinion on the Schedules or a part thereof. Accordingly,
we do not express such an opinion. Had we performed additional procedures, other matters might
have come to our attention that would have been reported to you.

This report should not be used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes. This report is intended solely
for the information and use of the U.S. Department of Labor, General Accounting Office, Office of
Management and Budget and those Federal agencies (listed in Section IIB) of this report and is not
intended to be and should not be used by anyone other than these specified parties.




October 31, 2002




                                                  8
                                    SECTION IIB-1
                            U.S. DEPARTMENT OF LABOR
                      EMPLOYMENT STANDARDS ADMINISTRATION
                      FEDERAL EMPLOYEES' COMPENSATION ACT
                               SPECIAL BENEFIT FUND
                    SCHEDULE OF ACTUARIAL LIABILITY BY AGENCY
                             AS OF SEPTEMBER 30, 2002


                                                                Actuarial
                                                                Liability
AGENCY                                                    (Dollars in thousands)
Agency for International Development (AID)                               $28,251

Environmental Protection Agency (EPA)                                    39,457
Federal Emergency Management Agency (FEMA)                               28,661
General Services Administration (GSA)                                   191,324
National Aeronautics and Space Administration (NASA)                     67,280
National Science Foundation (NSF)                                           1,637
Nuclear Regulatory Commission (NRC)                                         9,062
Office of Personnel Management (OPM)                                     13,285
United States Postal Service (USPS)                                   7,653,191
Small Business Administration (SBA)                                      31,487
Social Security Administration (SSA)                                    280,549
Tennessee Valley Authority                                              652,098
U. S. Department of Agriculture                                         861,620
U. S. Department of the Air Force                                     1,476,884
U. S. Department of the Army                                          1,929,082
U. S. Department of Commerce                                            190,687
U. S. Department of Defense – other                                     904,925
U. S. Department of Education                                            21,665
U. S. Department of Energy                                               92,442
U. S. Department of Health and Human Services                           276,699
U. S. Department of Housing and Urban Development                        80,994
U. S. Department of the Interior                                        658,501
U. S. Department of Justice                                           1,204,284


                                                 9
                                                SECTION IIB-1
                                        U.S. DEPARTMENT OF LABOR
                                  EMPLOYMENT STANDARDS ADMINISTRATION
                                  FEDERAL EMPLOYEES' COMPENSATION ACT
                                           SPECIAL BENEFIT FUND
                                SCHEDULE OF ACTUARIAL LIABILITY BY AGENCY
                                         AS OF SEPTEMBER 30, 2002

                                                                                                                 Actuarial
                                                                                                                 Liability
    AGENCY                                                                                                  (Dollars in thousands)
    U. S. Department of Labor                                                                                              $272,977
    U. S. Department of the Navy                                                                                         2,872,301
    U. S. Department of State                                                                                               56,259
    U. S. Department of Transportation                                                                                   1,151,854
    U. S. Depa rtment of the Treasury                                                                                    1,076,954
    U. S. Department of Veterans Affairs (VA)                                                                            1,762,577
    Other agencies 1                                                                                                       920,380
    Total - all agencies (Memo Only)                                                                                  $24,807,367




                                                                              10
1
    Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.
                                                     SECTION IIB-2
                                             U.S. DEPARTMENT OF LABOR
                                      EMPLOYMENT STANDARDS ADMINISTRATION
                                      FEDERAL EMPLOYEES' COMPENSATION ACT
                                                SPECIAL BENEFIT FUND
                                       SCHEDULE OF NET INTRA-GOVERNMENTAL
                                          ACCOUNTS RECEIVABLE BY AGENCY
                                              AS OF SEPTEMBER 30, 2002


                                                                                                             Amounts                     Net Intra-
                                                                                      Amounts               Expended        Credits     Governmental
                                                                                     Billed Not              Not Yet       Due from       Accounts
                                                                                     Yet Paid(1)             Billed (2)    Public (3)   Receivable(4)
                                                                                     (Dollars in            (Dollars in   (Dollars in    (Dollars in
 AGENCY                                                                              thousands)             thousands)    thousands)     thousands)
 Agency for International Development                                                     $5,585                   $860         $(24)           $6,421

 Environmental Protection Agency                                                               6,608             1,264           (30)            7,842

 Federal Emergency Management Agency                                                           5,117               803           (25)            5,895

 General Services Administration                                                             32,330              4,558         (145)            36,743

 National Aeronautics and Space Administration                                               13,907              1,869           (61)           15,715

 National Science Foundation                                                                      221               34            (1)             254

 Nuclear Regulatory Commission                                                                 1,599               217            (7)            1,809

 Office of Personnel Management                                                                2,101               286           (10)            2,377

 United States Postal Service                                                                80,507            248,129        (7,187)          321,449

 Small Business Administration                                                                 4,746               647           (21)            5,372

 Social Security Administration                                                              41,113              6,458         (195)            47,376

 Tennessee Valley Authority                                                                  69,780             18,014         (570)            87,224

 U. S. Department of Agriculture                                                            136,222             21,460         (636)           157,046

 U. S. Department of the Air Force                                                          266,645             40,243        (1,213)          305,675

 U. S. Department of the Army                                                               299,611             42,943        (1,283)          341,271

 U. S. Department of Commerce                                                                35,304              4,777         (143)            39,938

 U. S. Department of Defense - other                                                        161,195             23,866         (727)           184,334

 U. S. Department of Education                                                                 4,235               491           (15)            4,711

 U. S. Department of Energy                                                                  15,243              2,530           (81)           17,692

 U. S. Department of Health and Human Services                                               43,855              6,926         (202)            50,579

                                                                                    11
1 Amounts billed through June 30, 2002 (including prior years) but not yet paid as of September 30, 2002.
2 Amounts paid and accrued but not yet billed for t he period July 1, 2002 through September 30, 2002.
3 Allocation of credits due from public through September 30, 2002.
4 Total amount due to the fund for each agency as of September 30, 2002.
                                                     SECTION IIB-2
                                             U.S. DEPARTMENT OF LABOR
                                      EMPLOYMENT STANDARDS ADMINISTRATION
                                      FEDERAL EMPLOYEES' COMPENSATION ACT
                                                SPECIAL BENEFIT FUND
                                       SCHEDULE OF NET INTRA-GOVERNMENTAL
                                          ACCOUNTS RECEIVABLE BY AGENCY
                                              AS OF SEPTEMBER 30, 2002


                                                                                                             Amounts                      Net Intra-
                                                                                      Amounts               Expended         Credits     Governmental
                                                                                     Billed Not              Not Yet        Due from       Accounts
                                                                                     Yet Paid(1)             Billed (2)     Public (3)   Receivable(4)
                                                                                     (Dollars in            (Dollars in    (Dollars in    (Dollars in
 AGENCY                                                                              thousands)             thousands)     thousands)     thousands)
 U. S. Department of Housing and Urban Development                                       $15,154                  $2,328         $(71)          $17,411

 U. S. Department of the Interior                                                           102,865              17,080         (481)           119,464

 U. S. Department of Justice                                                                186,097              30,366         (875)           215,588

 U. S. Department of Labor                                                                   47,686               8,679         (250)            56,115

 U. S. Department of the Navy                                                               495,132              73,285        (2,272)          566,145

 U. S. Department of State                                                                   15,583               2,536           (67)           18,052

 U. S. Department of Transportation                                                         201,271              30,361         (931)           230,701

 U. S. Department of the Treasury                                                           171,364              27,504         (807)           198,061

 U. S. Department of Veterans Affairs                                                       296,499              46,951        (1,388)          342,062

 Other agencies                                                                             122,135              19,318         (596)           140,857

 Total - all agencies (Memo Only)                                                      $2,879,710             $684,783      $(20,314)        $3,544,179




                                                                                    12
1 Amounts billed through June 30, 2002 (including prior years) but not yet paid as of September 30, 2002.
2 Amounts paid and accrued but not yet billed for t he period July 1, 2002 through September 30, 2002.
3 Allocation of credits due from public through September 30, 2002.
4 Total amount due to the fund for each agency as of September 30, 2002.
                                        SECTION IIB-3
                                U.S. DEPARTMENT OF LABOR
                         EMPLOYMENT STANDARDS ADMINISTRATION
                         FEDERAL EMPLOYEES' COMPENSATION ACT
                                   SPECIAL BENEFIT FUND
                         SCHEDULE OF BENEFIT EXPENSE BY AGENCY
                          FOR THE YEAR ENDED SEPTEMBER 30, 2002

                                                          Benefits     Change in         Total
                                                          Paid and      Actuarial       Benefit
                                                          Accrued       Liability      Expense
                                                         (Dollars in   (Dollars in    (Dollars in
AGENCY                                                   thousands)    thousands)     thousands)
Agency for International Development                          $2,608       $(2,654)           $(46)

Environmental Protection Agency                                3,530          (176)           3,354

Federal Emergency Management Agency                            2,804         3,420            6,224

General Services Administration                               15,776        (7,529)           8,247

National Aeronautics and Space Administration                  6,563        (2,392)           4,171

National Science Foundation                                      113          (169)            (56)

Nuclear Regulatory Commission                                    735        (1,787)         (1,052)

Office of Personnel Management                                 1,033          (467)             566

United States Postal Service                                 805,575       253,721        1,059,296

Small Business Administration                                  2,236          (768)           1,468

Social Security Administration                                21,578         2,204           23,782

Tennessee Valley Authority                                    62,209        (5,432)          56,777

U. S. Department of Agriculture                               71,309       (17,343)          53,966

U. S. Department of the Air Force                            134,089       (53,009)          81,080

U. S. Department of the Army                                 177,858       (26,101)         151,757

U. S. Department of Commerce                                  15,588       (33,029)        (17,441)

U. S. Department of Defense - other                           64,444       (49,191)          15,253

U. S. Department of Education                                  1,572        (1,058)             514

U. S. Department of Energy                                     8,563        (3,306)           5,257

U. S. Department of Health and Human Services                 22,720       (16,656)           6,064

U. S. Department of Housing and Urban Development              8,004        (3,764)           4,240

U. S. Department of the Interior                              54,930        (4,970)          49,960



                                                    13
                                                      SECTION IIB-3
                                              U.S. DEPARTMENT OF LABOR
                                       EMPLOYMENT STANDARDS ADMINISTRATION
                                       FEDERAL EMPLOYEES' COMPENSATION ACT
                                                 SPECIAL BENEFIT FUND
                                       SCHEDULE OF BENEFIT EXPENSE BY AGENCY
                                        FOR THE YEAR ENDED SEPTEMBER 30, 2002

                                                                                                                       Change in         Total
                                                                                                           Benefit      Actuarial       Benefit
                                                                                                         Payments       Liability      Expense
                                                                                                         (Dollars in   (Dollars in    (Dollars in
 AGENCY                                                                                                  thousands)    thousands)     thousands)
 U. S. Department of Justice                                                                                 $98,950       $10,694         $109,644

 U. S. Department of Labor                                                                                    21,942        22,699           44,641

 U. S. Department of the Navy                                                                                248,166       (96,240)         151,926

 U. S. Department of State                                                                                     6,624          (386)           6,238

 U. S. Department of Transportation                                                                          102,750       (51,133)          51,617

 U. S. Department of the Treasury                                                                             89,084           848           89,932

 U. S. Department of Veterans Affairs                                                                        154,411       (50,098)         104,313

 Other agencies (1)                                                                                          101,507       (52,937)          48,570

 Total - all agencies (Memo Only)                                                                         $2,307,271     $(187,009)      $2,120,262




                                                                                      14
1 Non-billable and other agencies for which ESA did not individually calculate an actuarial liability.
                                      SECTION IIC
                           AGREED-UPON PROCEDURES & RESULTS

SUMMARY

Our objective was to perform specified agreed-upon procedures to the Schedules of Actuarial Liability
by Agency, Net Intra-Governmental Accounts Receivable by Agency and Benefit Expense by Agency
as of and for the year ended September 30, 2002, as summarized below:

•   Applied certain agreed-upon procedures as detailed in this section of the report to the estimated accrued
    actuarial liability of future FECA benefit payments as of September 30, 2002. A certified actuary was
    engaged to review the calculation of the actuarial liability.

•   Applied certain agreed-upon procedures as specified in this section of the report to the net intra-
    governmental accounts receivable billings and balances for the period ending September 30, 2002.

•   Applied certain agreed-upon procedures as outlined in this section of the report to the compensation and
    medical payments for the period October 1, 2001 to April 30, 2002 (sampling period), and for the period
    October 1, 2001 to September 30, 2002 (fiscal year), and to DOL’s cut-off process. Calculated the change
    in the actuarial liability from the prior year to the current year.

These procedures were performed in accordance with standards established by the American Institute
of Certified Public Accountants and with Government Auditing Standards, issued by the Comptroller
General of the United States.

Each section of this agreed- upon procedures report has a general overview of the section followed by
detailed listing of the agreed- upon procedures performed and the results of the procedures for each
section of this engagement.

In summary, we applied the following agreed- upon procedures:

Actuarial Liability - Consistent with prior years, the actuarial liability was evaluated by an
independent actuary. Agreed- upon procedures were performed on the methodology, assumptions and
information used in the model. The 2002 benefit payments predicted by the model for 2001 were
compared to actual payments made in 2002, and analytical procedures were performed relating the
change in the liability amount by agency to the change in the aggregate liability.

Net Intra-Governmental Accounts Receivable - Confirmation letters regarding the accounts receivable
as of September 30, 2002, were mailed and confirmed with the CFO Act and other selected agencies.
Agreed-upon procedures were performed on fiscal year 2002 accounts receivable as compared with
fiscal year 2001 accounts receivable with regards to new receivables, collections, write-offs, and
chargebacks.

Benefit Expense - Agreed-upon procedures were applied to the benefit payments made during the
current fiscal year by district office, by strata, and by agency as compared to benefit payments of the
prior fiscal year. Applied procedures to DOL’s cut-off process to determine if adjustments were
recorded in the appropriate period. Calculated the change in the actuarial liability from the prior year
to the current year.
                                                     15
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS

ACTUARIAL LIABILITY

General Overview

The actuarial model and the resulting actuarial liability were evaluated by an independent actuary.
The independent actuary issued a report that stated the aggregate actuarial liability was reasonably
stated in accordance with Actuarial Standards. We performed agreed- upon procedures on the
calculation of the actuarial liability by employing agency. Our procedures included considerations of
how the change in each agency's liability related to the change in the total estimate, its own history, its
group, and to the benefit payments made during the current year.

Procedures and Results

 Agreed-Upon Procedures Performed                      Results of Procedures
 Engaged a certified actuary to review the             The actuary’s review of the model indicated that the assumptions
 calculations of the actuarial liability as to:        were appropriate for the purpose and method applied.
 • Whether or not the assumptions used by the
     model were appropriate for the purpose and        The actuary tested the calculations included in the model and
     method to which they were applied.                found that they were performed consistent with the model's stated
 • Whether or not the assumptions were                 assumptions.
     reasonable representations for the underlying
     phenomena that they model.                        The actuary’s review of the model indicated that the
 • Whether or not such assumptions were being          methodologies were acceptable, were applied correctly and that
     applied correctly and if other calculations       calculations are performed in such a way as to generate results
     within the model were being performed in a        which are overall appropriate. Additional detailed checks of
     manner as to generate appropriate results.        calculations and data flow revealed no errors in methodology had
 • Whether or not changes in the assumptions           been used.
     over the years affected trends.
                                                       The methodology and assumption applied to the calculations
 • Whether or not tests of calculations provided a
     reasonable basis regarding the integrity of the   tested provides a reasonable basis in regard to the integrity
     model as a whole.                                 of the model as a whole.
 • Whether or not the overall results were
                                                       The actuary indicated that the model calculated a liability and that
     reasonable.
                                                       the overall results were reasonable under the method and
                                                       assumptions used.
 Confirmed with the American Academy of                The actuarial specialist was accredited and in good standing with
 Actuaries and the Casualty Actuarial Society as to    the American Academy of Actuaries and the Casualty Actuarial
 whether the actuary was accredited and in good        Society. The actuarial consulting firm certified that they were
 standing with the associations. Obtained a            independent from the DOL and the FECA Special Benefit Fund.
 statement of independence from the actuarial firm.    The actuarial consulting firm provided references stating
 Obtained two references from clients of the           experience in the type of work required for this engagement.
 actuarial firm as to the actuary's work.              Contacted the references of the actuarial firm and confirmed they
                                                       possessed the expertise and experience required for this
                                                       engagement.




                                                            16
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS

Agreed-Upon Procedures Performed                      Results of Procedures
Compared the economic assumptions used by the         The model utilizes estimates of prospective inflation and interest
model for 2001 to the assumptions used during the     rates to project and then discount future benefit payments. As
current year.                                         published by OMB, prospective interest rates of 10-year Treasury
                                                      bills decreased from 5.21% for the prior year to 5.20% for the
                                                      current year. Concurrently, the Bureau of Labor Statistics’ (BLS)
                                                      estimates of COLA decreased from a 10 year average of 2.64%
                                                      for the prior year to a 10 year average of 2.37% for the current
                                                      year, and CPI-Med factors decreased from a 10 year average of
                                                      4.13% for the prior year to a 10 year average of 4.04% for the
                                                      current year. In combination, these rate changes resulted in an
                                                      increase in the net effective rate (interest rate less inflation rate)
                                                      of approximately .23% (from approximately 2.27% to 2.50%).
                                                      The result of the changes in estimated prospective rates was to
                                                      decrease the estimated actuarial liability by approximately 2.3%
                                                      from what the liability would have been had 2001 rates been used
                                                      for the year 2002 calculation.
Compared the interest and inflation rates used by The interest rates used in the model were the same interest rates
the model to the source documents from which stated in OMB’s publication. The inflation rates used in the
they were derived.                                    model were derived from the BLS indices cited. The rates from
                                                      the BLS indices were adjusted to accommodate the difference
                                                      between the year end of the actuarial model and the year end of
                                                      the cited rates. The blended rates were recalculated without
                                                      exception.
Compared the actuarial liability by agency as The liability reported on the Memorandum issued to the CFOs of
reported in a Memorandum to the CFOs of Executive Departments of the unaudited estimated actuarial
Executive Departments of the unaudited estimated liability for future workers' compensation benefits agreed with the
actuarial liability for future workers' compensation liability calculated by the model and reported on the Projected
benefits to the liability calculated by the model and Liability Reports.
reported on the Projected Liability Reports.
Compared by agency and in aggregate, the 1998- The amounts in aggregate agreed without exception. By agency,
2002 benefit payments downloaded to the model approximately $168,000 of 1998 DOT benefit payments had been
with the amount of benefit payments reflected in downloaded as "Other Agencies". This amount represented
the Summary Chargeback Billing Report, to approximately .17% of DOT's 1998 payments.                              No other
determine whether the benefit payment data used exceptions were noted.
by the model was the same data upon which
agreed-upon procedures for benefit payments were
performed.




                                                            17
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS

Agreed-Upon Procedures Performed                       Results of Procedures

Determined the basis of the agency groupings and       The groupings were consistent with the prior year. The grouping
performed tests to establish the consistency of the    was determined premised on a claim duration probability study
grouping. Determined the impact of such inclusion      performed by a DOL economist. Both the designers of the model
in a grouping.                                         and the independent actuary agreed that the study provided a
                                                       basis for such groupings. The groupings were traced to the study.
                                                       The study included data through 1991, and therefore, agencies
                                                       without claims under FECA prior to 1991 had not been studied.
                                                       These agencies were placed in Group III, whose average
                                                       probability approximated the average of the aggregate population.
                                                       These agencies are AID, FEMA, NSF, NRC, OPM, SBA, and
                                                       SSA.

                                                       Group experience is used to develop the backfilling factors and is
                                                       factored into the loss development feature used to project the
                                                       pattern of future payments. Group experience has a more
                                                       significant impact on the estimated liabilities for smaller
                                                       agencies.
Calculated the change in the actuarial liability by    The aggregate liability decreased approximately .73%. The
agency and in aggregate. Identified and sought         following agencies’ liabilities changed by more than 10%:
explanations for agencies whose liability changed      Commerce (-14.8%), NRC (-16.5%), FEMA (13.6%).
by more than 10%.
                                                       A predictive test of what the liability should have been based
                                                       upon last year’s liability adjusted for the change in benefit
                                                       payments and economic factors predicted within 10% of the
                                                       model’s liability for the above agencies. The change in benefit
                                                       payments in the current fiscal year contributed to a liability
                                                       change in excess of 10%.
Calculated the ratio of the agency liability to the    The Liabilities to Benefits Paid ratio (LBP) was 11.06. The LBP
LBP ratio by agency and compared this to the           was above the average for both Commerce (12.19) and NRC
overall ratio and group ratio. Identified and sought   (11.97) and below the average for FEMA (10.65).          An LBP
explanations for those agencies for which the ratio    above the average would normally indicate the change in benefit
varied by more than 10 from their group ratio, and     payments had not caused the liability to be understated relative to
lay outside the range of group averages.               the model overall and an LBP below the average would normally
                                                       indicate the increase in benefit payments had not caused the
                                                       liability to be overstated.

                                                       By group, the range of the ratio was from 9.75 (Group V-Postal)
                                                       to 12.81 (Group III). The following agencies varied by more than
                                                       10 from their group’s ratio and fell outside the range of group
                                                       ratios: Education (13.55- Group II), NSF (14.83-Group III),
                                                       All Other Defense (14.16- Group III), State (8.95- Group IV),
                                                       Labor (12.84- Group IV).

                                                       A predictive test of what the liability should have been premised
                                                       upon last year’s liability adjusted for the change in benefit
                                                       payments and economic factors predicted within 10 for all
                                                       agencies except State. For State, the test resulted in a liability
                                                       17.61 lower than calculated by the model. Education, Labor &
                                                       NSF had medical LBPs which exceeded their group medical
                                                       LBPs.


                                                            18
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS

Agreed-Upon Procedures Performed                        Results of Procedures

                                                        DOL identified an atypical lump -sum payment in an older injury
                                                        year that they indicated could have skewed their results upward.
                                                        The actuary concurred with DOL’s explanation and
                                                        recommended that the actuarial liability for DOL be adjusted
                                                        downward by approximately $23 million. DOL reviewed whether
                                                        atypical payments contributed to the high LBPs in Education,
                                                        Defense, and NSF. DOL did not identify atypical payments in
                                                        these agencies.
Compared the benefit payments predicted by the          Payments increased in constant dollars approximately .97%
model for year 2002 to the actual benefit               during the current fiscal year, which was comprised of a .82%
payments. Identified the agencies where the model       increase in compensation and 1.37% increase in medical benefit
computed benefit payment that varied by more            payments. The aggregate trend of the last four years in constant
than 20% from actual benefit payments made              dollars is .4% increase in compensation and 4.25% average
during 2002. Calculate an average LBP for all           annual increase in medical.
agencies and determine which agencies were
higher than the average.                                Actual payments were approximately 14.0% lower than
                                                        predicted. The following agencies’ actual payments varied from
                                                        the prediction by more than 20%: NRC (-28.5%),
                                                        Commerce (-39.2%), Justice (28.9%), State (31.13%).

                                                        The LBP ratios for NRC (11.97), Commerce (12.19), and Justice
                                                        (12.59) were higher than average (11.06).

                                                        During the design stage of the model, this table of projected
                                                        benefit payments was requested to assist in the budgetary process
                                                        as an addition to the liability calculation. DOL stated, and the
                                                        actuary concurred, that the nature of the computed projected
                                                        benefit payments were that of a derivative of the model rather
                                                        than intrinsic to the liability calculation. Labor has initiated
                                                        procedures to correct the problems identified with the table.
Compared an estimate of the liability by agency         The calculated amounts were within 10% of amounts derived by
calculated from the agency’s prior year balance,        DOL’s model for all agencies except Department of State.
the change in their benefit payments, and the           Department of State’s liability was estimated 17.61% lower than
overall effect of change in economic factors to the     calculated by the model.
liability computed by the actuarial model.
Performed a survey of interest and inflation rates      Surveyed rates for compensation ranged from 2.34% to 3.00%
utilized by the Postal Service, OPM, and two other      and for medical ranged from 1.28% to 1.4%. The model's rates
sources with governmental actuarial liabilities         compute to net effective rates of approximately 2.83% for
experience. Determined how the surveyed net             compensation and 1.16% for medical. The medical portion of the
effective rates compared to the interest rates used     liability comprises approximately 19.85% of the total. A higher
in the model and explain the effect of a higher rate.   rate equates to the calculation of a lower liability.




                                                             19
                                      SECTION IIC
                           AGREED-UPON PROCEDURES & RESULTS

Agreed-Upon Procedures Performed                   Results of Procedures

Compared the actuarial liability for the Postal    The actuarial liability calculated by DOL for the Postal Service
Service calculated by the model to the actuarial   was 14.2% higher than the calculation prepared by the Postal
liability calculated by the Postal Service’s       Service. The net effective discount rates used by the Postal
independent model.                                 Service were different than those used by DOL. Use of the same
                                                   Postal Service net effective discount rates would have resulted in
                                                   the difference of approximately 11.9%.

                                                   DOL’s calculation was 23.8% higher than Postal Service last
                                                   year. FECA’s estimate for the Postal Service increased 3.4%,
                                                   while Postal Service’s estimate increased 12.2%.




                                                        20
                                         SECTION IIC
                              AGREED-UPON PROCEDURES & RESULTS

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

General Overview

Agreed-upon procedures were applied to the net intra-governmental accounts receivable as of
September 30, 2002, as compared with net intra- governmental accounts receivable as of September
30, 2001, with regards to new receivables, collections, write-offs, and chargebacks.

We compared the fiscal year 2002 net intra-governmental accounts receivable to the fiscal year 2001
net intra-governmental accounts receivable and investigated changes of over 5 percent. We also
compared new receivables, collections and write-offs for fiscal year 2002 to fiscal year 2001;
calculated the accounts receivable outstanding for each fiscal year; calculated the chargeback and fair
share total for 2002; and confirmed the chargeback amounts billed for benefit payments directly with
the Federal agencies charged.

Procedures and Results

Agreed-Upon Procedures Performed                                   Results of Procedures
Compared prior year ending net intra-governmental                  The change in the net intra-governmental accounts
accounts receivable balances to the current year net intra-        receivable balances was in proportion to the increases in
governmental accounts receivable balance by Federal                benefit payments billed to and paid by each Federal agency.
agency. Determined whether the increase or decrease was
in proportion to the change in amounts billed and paid.
Compared the fiscal year 2002 account activity by Federal          The change in the write-offs and new accounts receivable
agency for write-offs and new accounts receivable to prior         were in proportion with the amounts billed and collected.
fiscal year activity. Determined whether the increase or
decrease was in proportion to the change in amounts billed
and collected.
Confirmed accounts receivable balances due as of                   Confirmations were reviewed for agreement to amounts
September 30, 2002, for all CFO Act agencies, except DOL           recorded.    Explanations for the differences on the
and other selected Federal agencies.                               confirmations received were obtained from the agencies
                                                                   and/or DOL. A confirmation was not received from
                                                                   Interior. DOL’s CFO office has an interagency workgroup
                                                                   which works to resolve any differences with the agencies.
Compared the chargeback billing report for the period, July        The amounts billed to the Federal agencies for the period
1, 2001 through June 30, 2002, to the amounts billed to the        July 1, 2001 through June 30, 2002, agreed to the
Federal agencies.                                                  chargeback billing report.
Recalculated the allocation of credits due from the public.        No exceptions were noted.
Determined, for a non-statistical sample of 25 accounts            In 1 of 25 accounts receivable, the accounts receivable
receivable items, whether claimant accounts receivable             account was incorrectly reported in the DMS, resulting in a
were properly established and classified.                          net overstatement of $3,467. No other exceptions were
                                                                   noted.




                                                              21
                                        SECTION IIC
                             AGREED-UPON PROCEDURES & RESULTS

Agreed-Upon Procedures Performed                             Results of Procedures

Determined, for a non-statistical sample of 100 items,       No exceptions were noted.
whether, for the 25 cases in the preliminary status, the
Letter CA-2201 or Letter CA-2202, as applicable, was
properly issued to notify the claimants of the preliminary
decision regarding the claimant’s accounts receivable
and to give the claimant an opportunity to provide
additional evidence regarding the accounts receivable.
Determined whether, for the 75 cases in final status, a
final decision was made as to the debt and whether the
final decision was properly recorded and reported to the
claimant.
Determined, for a non-statistical sample of 75 accounts      In 4 of 75 accounts receivable, a portion of the interest or
receivable items in final status, whether the proper         principal on the debts were not properly written-off,
procedures were followed with regards to the                 adjusted or compromised. No other exceptions were noted.
establishment of a repayment plan, the assessment of
interest, the compromise or waiving of portions of
interest or principal as appropriate and the pursuit of
accounts receivable which were in arrears.




                                                             22
                                        SECTION IIC
                             AGREED-UPON PROCEDURES & RESULTS

BENEFIT EXPENSE

General Overview

Agreed-upon procedures were applied to compare compensation and medical benefit payments in
total, by strata, by average payment and by agency for the fiscal year ended September 30, 2002, to
the fiscal year ended September 30, 2001, and for the sampling period of October 1, 2001 to April 30,
2002, to the sampling period of October 1, 2000 to April 30, 2001. Changes in the actuarial liability
from the prior year to the current year were calculated. Agreed- upon procedures were applied to
DOL's cut-off process.

Procedures and Results

 Agreed-Upon Procedures Performed                       Results of Procedures
 Compared the benefit payments recorded in the          The benefit payments recorded in the ACPS and BPS databases
 Automated Compensation Payment System (ACPS)           varied from the Department of Treasury’s SF-224 at
 and Benefit Payment System (BPS) databases to the      April 30, 2002, by .004%. As of September 30, 2002, the
 Department of Labor's general ledger and the           ACPS and BPS databases varied from the Department of
 Department of Treasury’s SF-224s as of                 Treasury’s SF-224 at September 30, 2002, by .07%
 April 30, 2002 and September 30, 2002.                 ($1.547 million) and from the Department of Labor’s general
                                                        ledger by 0.12% ($272 thousand).
 Obtained the Department of Labor's year-end cut-off    The year-end adjustment made to the general ledger to prorate
 procedures. Obtained the year-end adjustments made     the expenditures which overlapped fiscal years agreed to the
 to the general ledger to prorate expenditures which    supporting documentation. The adjustments were recorded in
 overlapped fiscal years. Determined if these           the correct period.
 adjustments were recorded in the correct period.
 Determined the average ACPS and BPS payments by        The average ACPS benefit payments per case by strata varied
 strata for the April 30, 2002 and September 30, 2002   from (1.41)% to 13.30% with an average increase of 4.10% at
 database and compared them to the average ACPS         April 30, 2002. The average ACPS benefit payments per case
 and BPS payments by strata for the April 30, 2001      by strata varied from (5.64)% to 16.76% with an average
 and September 30, 2001 databases. Determined if        decrease of .70% at September 30, 2002.
 there were any variances larger than 7%. Requested
 explanations from DOL for variances over 7%, if        The strata of ACPS payments per case which increased over
 any.                                                   7% for the strata of payments under $3,000 increased by 13.3%
                                                        and 16.7% as of April 30 and September 30, respectively. DOL
                                                        stated that a review of the cases in this strata would be
                                                        necessary to determine the cause of this increase.

                                                        The average BPS benefit payments by strata varied from
                                                        (6.88)% to 3.80% with an average decrease of 1.52% at
                                                        April 30, 2002. The average BPS benefit payments by strata
                                                        varied from (10.11)% to 1.51% with an average decrease of
                                                        .25% at September 30, 2002.

                                                        The average BPS benefit payments by strata at April 30, 2002
                                                        decreased by more than 7% for the high dollar strata of
                                                        payments over $75,000. DOL explained that due to the limited
                                                        number of bills over $75,000, only a few bills would equate to
                                                        this change.


                                                          23
                                        SECTION IIC
                             AGREED-UPON PROCEDURES & RESULTS


Agreed-Upon Procedures Performed                      Results of Procedures

Compared the total benefit payments for each of the   The 2001 benefits increased by 5.92%. DOL stated that
last 5 fiscal years. Determined if there were any     medical benefits increased substantially in 2001 over prior
variances larger than 5% for each of the 5 fiscal     years resulting in higher overall benefit payments. No other
years.    Requested explanations from DOL for         variances over 5% were noted.
variances over 5%, if any.
Compared the summary chargeback billing list to the    The agency chargeback billing list varied from the benefit
benefit payment database as of September 30, 2002.     payment      database    for    the    fiscal  year    ending
                                                       September 30, 2002, by .06%.
Compared, by agency and in total, compensation and Benefit         payments     for    the    fiscal   year   ending
medical bill payments for the fiscal year ending September 30, 2002, increased 4.24% overall.                 Benefit
September 30, 2002, with payments made for the payments increased or decreased by more than 7%, for the
fiscal year ending September 30, 2001. Requested following agencies:
explanations from DOL for variances over 7%, if Commerce                     -27.5%     NASA            -8.1%
any.                                                   AID                   -13.7%     SSA             7.6%
                                                       Department of State -11.1%       Postal Service 9.0%
                                                       Education             -10.7%     FEMA           11.0%
                                                       NRC                   -10.2%
                                                       DOL is reviewing the payments trends in these agencies.
Compared the benefit payments made by each Benefit payments by district offices for the period through
district office as of April 30, 2002 and September 30, April 30, 2002 and September 30, 2002, varied from the prior
2002, to the prior year data. Determined if there year by –16.19% to 15.34% for the 12 district offices. Benefit
were any variances larger than 5%. Requested payments increased or decreased by more than 5% for the
explanations from DOL for variances over 5%, if following districts:
any.                                                   Hearings and Review (16.19%)
                                                       New York                   6.24%
                                                       Denver                     6.82%
                                                       San Francisco             6.96%
                                                       Dallas                    7.02%
                                                       Chicago                  15.34%
                                                       DOL stated the decrease and increases were due to the
                                                       movement of cases among the district offices and the change in
                                                       the coding of ECAB cases.
Calculated a 12-month projected benefit payment The actual 12-month total benefit payments varied from the
based on the April 30, 2002 interim database. projected 12-month total benefit payments for the fiscal year
Compared the projected 12-month total benefit ending September 30, 2002, by -.90%.
payments to the actual 12-month total benefit
payments as of September 30, 2002.
Compared the fee schedule used to pay medical DOL prepared a study of the amounts paid for 12 different
providers with the fee schedule used by other common procedure codes by 19 state agencies. The amounts
agencies.                                              which would be paid under DOL’s fee schedule did not exceed
                                                       the maximum and was in excess of the minimum paid by the
                                                       19 state agencies.
Calculated the change in the actuarial liability The change in the actuarial liability was calculated correctly by
reported on the current year and prior year’s DOL.
compilation report prepared by DOL.




                                                         24
                                                                                  Carmichael
                                                                               Brasher Tuvell
 Certified Public Accountants                                                    & Company
                                                                                        678-443-9200
                                                                              Facsimile 678-443-9700
                                                                                    www.cbtcpa.com


                                    SECTION IIIA
                       INDEPENDENT SERVICE AUDITORS' REPORT


Victoria A. Lipnic, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor:

We have examined the accompanying description of the policies and procedures of the Division of
Federal Employees' Compensation applicable to general computer controls and the processing of
transactions for users of the Federal Employees' Compensation Act Special Benefit Fund. Our
examination included procedures to obtain reasonable assurance about whether (1) the accompanying
description presents fairly, in all material respects, the aspects of DFEC policies and procedures that
may be relevant to a user organization’s internal control as it relates to an audit of financial
statements; (2) the policies and procedures included in the description were suitably designed to
achieve the control objectives specified in the description, if those policies and procedures were
complied with satisfactorily, and users of the FECA Special Benefit Fund applied the internal control
policies and procedures contemplated in the design of DFEC's policies and procedures, as described in
Section IIIB; and (3) such policies and procedures had been placed in operation as of April 30, 2002.

DFEC uses SunGard eSourcing, Inc. (SunGard), to process information and to perform various
functions related to the data processing services of the FECA Special Benefit Fund. The
accompanying description includes only those policies and procedures and related control objectives
at DFEC, and does not include policies and procedures and related control objectives at SunGard, a
subservicer. The control objectives were specified by the management of DFEC and did not extend to
the controls at SunGard. Our examination did not extend to the controls of SunGard, the subservicer.
Our examination was performed in accordance with standards established by the American Institute of
Certified Public Accountants, Government Auditing Standards, issued by the Comptroller General of
the United States, and included those procedures we considered necessary in the circumstances to
obtain a reasonable basis for rendering our opinion.

In our opinion, the accompanying description of the policies and procedures of DFEC presents fairly,
in all material respects, the relevant aspects of DFEC's policies and procedures that had been placed in
operation as of April 30, 2002. Also, in our opinion, the policies and procedures, as described, are
suitably designed to provide reasonable assurance that the specified control objectives would be
achieved if the described policies and procedures were complied with satisfactorily and users of the
FECA Special Benefit Fund applied the internal control policies contemplated in the design of the
DFEC's policies and procedures.




                                                  25
              1647 Mount Vernon Road, Dunwoody Exchange, Atlanta, Georgia 30338
In addition to the procedures we considered necessary to render our opinion, as expressed in the
previous paragraph, we applied tests to specified policies and procedures to obtain evidence about
their effectiveness in meeting the related control objectives during the period from October 1, 2001
through April 30, 2002. The specific policies and procedures and the nature, timing, extent, and
results of the tests are summarized in Section IIIC. This information has been provided to the users of
the FECA Special Benefit Fund and to their auditors to be taken in consideration, along with
information about the internal controls at user organizations, when making assessments of control risk
for user organization. In our opinion, the policies and procedures that were tested, as described in
Section IIIB were operating with sufficient effectiveness to provide reasonable, but not absolute,
assurance that the specified control objectives were achieved during the period from October 1, 2001
through April 30, 2002. However, the scope of our engagement did not include tests to determine
whether control objectives not listed in Section IIIC were achieved; accordingly, we express no
opinion on the achievement of control objectives not included in Section IIIC.

The relative effectiveness and significance of specific policies and procedures at DFEC and their
effect on assessment of control risk at user organizations are dependent on their interaction with the
policies and procedures, and other factors present at individual user organizations. We have
performed no procedures to evaluate the effectiveness of policies and procedures at individual user
organizations.

The description of policies and procedures at DFEC is as of April 30, 2002, and information about
tests of the described policies and procedures of specified policies and procedures covers the period
October 1, 2001 through April 30, 2002. Any projection of such information to the future is subject to
the risk that, because of change, the description may no longer portray the system in existence. The
potential effectiveness of specified policies and procedures at DFEC is subject to inherent limitations
and, accordingly, errors, irregularities or fraud may occur and not be detected. Furthermore, the
projection of any conclusions, based on our findings, to future periods is subject to the risk that
changes may alter the validity of such conclusions.

This report is intended solely for the information and use of the U.S. Department of Labor, users of
the FECA Special Benefit Fund (Federal agencies listed in Section IIB of this report), and the
independent auditors of its users.




October 31, 2002




                                                  26
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

OVERVIEW OF SERVICES PROVIDED

Overview

The Federal Employees' Compensation Act Special Benefit Fund was established by FECA to provide
income and medical cost protection worldwide for job-related injuries, diseases, or deaths of civilian
employees of the Federal Government and certain other designated groups. The DOL-ESA is charged
with the responsibility of operation and accounting control of the Special Benefit Fund under the
provisions of FECA. Within ESA, the Office of Workers' Compensation Program, DFEC administers
the FECA program.

In 1908, Congress passed legislation providing workers' compensation to Federal workers whose jobs
were considered hazardous. Due to the limited scope of this legislation, FECA was passed in 1916,
extending workers' compensation benefits to most civilian Federal workers. FECA provided benefits
for personal injuries or death occurring in the performance of duty.

FECA provides wage replacement (compensation) benefits and payment for medical services to
covered Federal civilian employees injured on the job, employees who have incurred a work-related
occupational disease, and the beneficiaries of employees whose death is attributable to a job-related
injury or occupational disease. Not all benefits are paid by the program since the first 45 days from
the date of the traumatic injury are usually covered by putting injured workers in a continuation of pay
(COP) status. FECA also provides rehabilitation for injured employees to facilitate their return to
work.

Actuarial Liability

Within ESA, the Division of Financial Management has been designated as the responsible agency to
generate the annual FECA actuarial calculations. The Division of Planning, Policy and Standards
(DPPS) has the direct responsibility for preparing the actuarial liability and the initial review of the
detailed calculations. The DPPS also has the responsibility of investigating and revising the initial
model's calculations as deemed appropriate. The FECA actuarial liability is prepared on an annual
basis as of September 30, of each fiscal year.

The actuarial model was originally developed during 1991 as spreadsheets by a DOL Office of
Inspector General (OIG) contractor (a certified actuary). The model utilized the basic theory that
future benefit payment patterns will reflect historic payment patterns. Under this approach, a
projection can be made into future years based on historical payments. This selected approach is
commonly referred to as the "paid loss extrapolation method." This method was chosen for its
simplicity, availability of payment data, cost savings and reliability.




                                                  27
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

Since 1991, the number of agencies for whom the liability is calculated increased. These additional
agencies are smaller in size than that of the agencies for whom the original model was developed.
Historic extrapolation models are generally held to work best with larger populations. As a result, the
calculations from year to year were more volatile than those for the original agencies, and preparing
the estimates became increasingly cumbersome. Therefore, during FY 2000, DOL engaged actuaries
to create a new model.

The new model shares its fundamental theory with the old model; future benefit payments are
predicted based upon the pattern of historical payments. As before, in order to run the model, the
DPPS imports the current year's actual FECA payments by each chargeback agency (FECA
Chargeback System tapes). This payment data per agency is subdivided into incurred injury year cells
to provide the extra dimension of the historic payment pattern. The chargeback tapes (historic basis)
are maintained by the FECA Program, which supplies the historic data to DPPS annually. Both
models included historical payments in constant dollars. Inflation and discount factors as derived
from OMB economic forecasting packages in its calculations of future payments. Therefore, both
models share a sensitivity to economic assumptions.

However, the new model varies from the previous model. For instance, claims incurred but not
reported (IBNR) was excluded from the previous model in accordance with Appendix B - Liability
Recognition and Measurement Matrix of SFFAS 5. The new model recognizes IBNR, which
enhances its comparability to private sector insurance models. FASAB has concurred wit h its
inclusion. Also, the previous model predicted future payments by multiplying the most recent year's
payments by decay rates derived from historical payments. In contrast, the new model develops an
estimate of total anticipated payments by injury year, subtracts cumulative payments to date, and
allocates the remaining payments to future years premised upon loss development factors.

In order to establish cumulative payments to date, the new model utilizes a backfilling technique, a
casualty model methodology. Because FECA makes payments on injuries incurred as far back as
1952, and the old model's data base of payments begins in 1989, backfilling was necessary to
complete the matrices of cost by injury to payment year. The technique consists of extrapolating
patterns from actual payments for the years included in the data base, and developing reverse decay
rates to predict what the costs should have been in the years prior to the base of known payments.

In developing the backfilling factors, the model makes use of groupings of agencies. The groupings
were established based upon a claim duration study performed by a DOL economist. Most agencies
were placed in groups with a similar probability of a claim extending over a certain period of time.
The agencies added since 1991, were included in the group whose probabilities approximated the
average of all the agencies. The group is both affected by and affects the agencies within it. For
instance, smaller agencies are more affected than larger agencie s. Besides the development of the
backfilling factors, the grouping affects the predicted loss development factors. The loss development
factors are a weighted combination of agency, group, and all-agency factors. The new model includes
extending the duration of the model until the estimated payments left to be paid expire.

                                                  28
                                     SECTION IIIB
                  DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                              POLICIES AND PROCEDURES

Chargeback System

DFEC is required to furnish to each agency and instrumentality, before August 15th of each year, a
statement or bill showing the total cost of benefits and other payments made during the period July 1
through June 30. DFEC established the chargeback system to furnish these statements.

The chargeback system creates bills which are sent to each employing agency for benefits that have
been paid on the agency's behalf. The bills are for a fiscal year inclusive of benefits paid from July 1
through June 30. Each agency is required to include in its annual budget estimates for the fiscal year
beginning in the next calendar year, a request for an appropriation for the amount of these benefits.
These agencies are then required to deposit in the Treasury, the amount appropriated for these benefits
to the credit of the Fund within 30 days after the appropriation is available.

If an agency is not dependent on an annual appropriation, then the funds are required to be remitted
during the first 15 days of October following the issuance of the bill.

The bills sent to agencies for the chargeback system contain identifying codes that indicate both the
year being billed and the year in which the bill is to be paid. Each bill sent out in fiscal year 2001 and
due in fiscal year 2002 would be coded as follows: 01-XXX-02. The 01 indicates the year the bill is
generated, the XXX indicates the numerical sequence of the bill, and the 02 would indicate the year
that the bill would be due and paid.

Operational Offices

DFEC administers FECA through 12 district offices and a national headquarters located in
Washington, D.C. The District offices and the areas covered by each Distric t office are:

                       Location of
       District        District Office        States or Regions Covered by District Office
          1            Boston                 Connecticut, Maine, Massachusetts, New Hampshire,
                                              Rhode Island, Vermont
          2            New York               New Jersey, New York, Puerto Rico, Virgin Islands
          3            Philadelphia           Delaware, Pennsylvania, West Virginia
          6            Jacksonville           Alabama, Florida, Georgia, Kentucky, Mississippi,
                                              North Carolina, South Carolina, Tennessee
           9           Cleveland              Indiana, Michigan, Ohio
          10           Chicago                Illinois, Minnesota, Wisconsin
          11           Kansas City            Iowa, Kansas, Missouri, Nebraska, all DOL employees
          12           Denver                 Colorado, Montana, North Dakota, South Dakota, Utah,
                                              Wyoming




                                                   29
                                     SECTION IIIB
                  DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                              POLICIES AND PROCEDURES


                      Location of
       District       District Office        States or Regions Covered by District Office
         13           San Francisco          Arizona, California, Guam, Hawaii, Nevada
         14           Seattle                Alaska, Idaho, Oregon, Washington
         16           Dallas                 Arkansas, Louisiana, New Mexico, Oklahoma, Texas
         25           Washington, D.C.       District of Columbia, Maryland, Virginia,
                                             and overseas/special claims
          50          National Office        Branch of Hearings and Review

Subservicer

DFEC utilizes a subservicer, SunGard, to provide computer hardware and a communications network
between the national office, the District offices and the U.S. Treasury, to maintain a tape library and
disk drive backup and for other computer mainframe functions. SunGard’s policies and procedures
and related control objectives were omitted from the description of Control Objectives, Tests of
Policies and Procedures and Operating Effectiveness contained in this report. Control Objectives,
Tests of Policies and Procedures and Operating Effectiveness included in this report include only the
objectives that DFEC’s policies and procedures are intended to achieve.




                                                   30
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

OVERVIEW OF CONTROL ENVIRONMENT

An organization’s control environment reflects the overall attitude, awareness and actions of
management and others concerning the importance of controls and the emphasis given to control in
the organization’s policies and procedures, methods, and organizational structure. The following is a
description of the key policies and procedures that are generally considered to be part of the control
environment.

Organization and Management

OWCP is one of four agencies within ESA. DFEC is one of five divisions within OWCP.

                             ESA, Office of Workers’ Compensation Programs


                                                                 Office of Workers’
                                                                   Compensation
                                                                     Programs

                                                  Regional
                                                 Directors for
                                                   OWCP



               Division of         Division of            Division of          Division of Coal    Division of
               Planning,            Federal              Longshore and         Mine Workers’        Energy
               Policy and          Employees’           Harbor Workers’         Compensation       Employees’
               Standards          Compensation           Compensation                             Compensation




   Branch of                           Branch of
    Policy,        Branch of           Resource
   Planning         Medical          Allocation and
     and         Standards and       Management
    Review       Rehabilitation         Support



                                        OWCP
                                       Mail Room




                                                          31
                                  SECTION IIIB
               DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                           POLICIES AND PROCEDURES

DFEC has four branches:

1.       Branch of Regulations and Procedures - This branch assists in developing claims and
         benefit payment policies, regulations and procedures; prepares and maintains the program's
         manuals; plans and conducts studies of claims and benefit payment functions; and
         participates in training activities and accountability reviews of District offices.

2.       Branch of Automatic Data Processing (ADP) Coordination and Control - This branch
         provides ADP support services for the FECA program. It coordinates the overall ADP work
         of DFEC and provides policy direction for ADP systems activities.

3.       Branch of Technical Assistance - This branch develops materials for use by District offices
         and other Federal agencies to educate Federal employees in reporting injuries and claiming
         compensation under the FECA. They also hold workshops for compensation personnel in
         various Federal agencies and for groups of employee representatives.

4.       Branch of Hearings and Review - This branch is responsible for conducting hearings and
         reviews of the written record in FECA cases. Hearing Representatives issue decisions
         which sustain, reverse, modify, or remand cases to the OWCP District offices.

                      Division of Federal Employees’ Compensation (DFEC)




                                           Office of the Director

                                               Deputy Director




                 Branch of        Branch of ADP               Branch of     Branch of
               Regulations and     Coordination               Technical    Hearings and
                 Procedures        and Control                Assistance     Review




                                                  32
                                      SECTION IIIB
                   DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                               POLICIES AND PROCEDURES

Branch Operations

A Branch chief reports directly to the Deputy Director. The Director and Deputy Director coordinate
the operations of the 12 District offices.

District Offices

A District Director (DD) oversees the daily operations at each of the 12 District offices. The DD in
each office oversees the claims section and a Fiscal Officer who oversees the Fiscal Section.

The District offices serve the persons residing within their district. When an individual moves from
one district to another, the individual's case file and responsibility for monitoring the case is
transferred to the district office where the individual has moved, unless the case is for a claimant
specified as a special employee. Cases specified as special employee cases are always processed at
District office 50.

The specific functions within the District offices are:

1.     Claims Functions. In each district office are two or more Supervisory Claims Examiners, who
       are responsible for the operation of individual claims units, and a number of Senior Claims
       Examiners and Claims Examiners (CE), who have primary responsibility for handling claims,
       including authorization of compens ation and eligibility for medical benefits. Individuals at
       each level of authority from DD to CE have been delegated specific responsibilities for issuing
       decisions on claims.

2.     Fiscal Functions. Each District office usually has a Fiscal Operations Specialist and at least
       one Benefit Payment Clerk. Some District offices have a Bill Pay Supervisor as well. The
       unit is generally responsible for resolution of problems with medical bills, complex
       calculations of benefits and overpayments, adjustments to compensation and bill pay histories,
       changes in health benefits and life insurance coverage, and financial management records. In
       some District offices, fiscal personnel enter compensation payments into the electronic system.

3.     Medical Functions. Each District office usually has at least one District Medical Adviser
       (DMA) who works under contract to review individual cases, and some District offices have a
       District Medical Director (DMD) as well. Each District office also has a Medical Management
       Assistant, who arranges referrals to second opinion and referee specialists. Each District office
       also has a Staff Nurse, who is responsible for coordinating a number of field nurses who
       monitor claimant's medical progress and assist their efforts to return to work.




                                                    33
                              SECTION IIIB
           DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                       POLICIES AND PROCEDURES

4.   Mail and File Functions. Personnel in this area open, sort, and place mail; set up case files,
     retire case records according to established schedules; and transfer case files in and out of
     the District office. OWCP also uses a centralized mailroom located in London, Kentucky
     for routine mail. Mail such as CA-1, CA-2, CA-7, CA-16, congressional inquiries and
     certain types of medical provider bills are processed by the district offices and not in the
     centralized mailroom.

5.   Vocational Rehabilitation Functions. Each District office has at least one Rehabilitation
     Specialist (RS) and usually a Rehabilitation Clerk. The RS manages a number of
     Rehabilitation Counselors, who work under contract with OWCP to help return claimants to
     suitable work, prefe rably with little or no loss of earnings. The emphasis of the
     rehabilitation program is on early referral and evaluation of all injured workers who need
     services; case management standards to ensure that plans are efficient and of good quality;
     flexibility to provide the widest range of services from private and public rehabilitation
     agencies; preference for reemployment with the previous employer; and placement of
     workers in jobs where disability does not prevent then from competing with non-disabled
     employees.


                                 DFEC District Office Structure



                                               Office of the
                                                 District
                                                 Director



                     Assistant                                    Branch of
                      District                                    Operations
                     Director                                      Support



                       Claims                       Mail and        Fiscal        Medical
                       Section                       File          Section        Section
                                                    Section
                                                                   Bill Pay
                                                                   Section




                                               34
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

OVERVIEW OF TRANSACTION PROCESSING

Identification and Registration of the Recipient of FECA Benefits

Authorized recipients of FECA benefits are those individuals who meet all of five eligibility criteria.
Injured workers submit claim information to the district office which serves the geographical location
in which the claimant resides. Claims are processed by the district office using the Case Management
File System (CMF).

The CMF uses a standard identification number of nine characters to identify each case file. This
number is called the case number. All recipients of FECA benefits must have a unique case number
recorded in the CMF, some individuals could have multiple case numbers if the individual has
sustained more than one injury.

The CMF maintains an automated file with identification on all individuals who have filed claims with
FECA. These records contain data elements that identify the claimant, the mailing and/or location
address for the claimant, and additional injury information and case status information.

Benefit Payments

FECA claimants may be entitled to compensation for injury and lost wages, schedule awards, death
benefits and payment of medical expenses related to the work-related injury. The payments for lost
wages, schedule awards and death benefits are processed through the Automated Compensation
Payment System (ACPS), while the payments for injury-related medical expenses are processed
through the Bill Payment System (BPS). Each of these systems support the Department of Labor's
general ledger system via an automated interface.

The primary function of ACPS is to process the payment of weekly, monthly, and supplemental
benefits to claimants. The ACPS interfaces with the CMF to ensure that approved claims are
supported by a valid case number. District office personnel input compensation payment data
worksheets into the ACPS. The inputs onto the payment data worksheets are reviewed and if the
information is correct, no further action is required and payments will be made during the next
appropriate payment cycle.

Approved payments are stored in a temporary file for the duration of the appropriate compensation
payment cycle: Daily Roll (5 days), Death Benefits (28 days), or Disability (28 days). At the end of
the cycle, the mainframe runs automated programs to format the data to Treasury specifications, to
update the compensation payment history files for use in the chargeback system, and to send
summarized information to the District office Fund Control System. The specially formatted Treasury
information is sent to Treasury via a secure modem over a dedicated line for payment processing.




                                                  35
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES


The primary function of the BPS is to process payments to medical service providers or
reimbursements to claimants for medical expenses incurred for the work-related injury. The national
office has the responsibility of compiling the BPS data on a nightly basis as it is transmitted from each
District office. Medical bills containing charges for other than appliances, supplies, services or
treatment provided and billed for by nursing homes are subject to a medical fee schedule. The
mainframe will run a zip code check and a comparison check of the amount to be paid to fee schedules
in each geographical area. If the amount is in excess of the geographical fee schedule, the system will
limit the payment to the maximum amount in the fee range. A bill in which certain fields are the same
is identified by the system as a potential duplicate payment, excluded from payment and sent to a bill
resolver at the District office to determine if a duplicate payment exists.

Approved payments are stored in a temporary file for the duration of the bill payment cycle of 5 days.
At the end of the cycle, the mainframe runs programs that format the data to Treasury specifications,
updates the bill payment history files for use in the chargeback system, and sends summarized
information to the District office Fund Control System. The specially formatted Treasury information
is sent to Treasury via secure modem over a dedicated line for payment processing.




                                                   36
                                           SECTION IIIB
                DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                                  POLICIES AND PROCEDURES
The following charts set forth an overview of transaction processing at DFEC:

Processing of Compensation Payments
                                                                                                                 T-Cup
             CA-7, Claim for                          CA-7 is                     Data Entry                 accesses CMF
             Compensation is                          imaged                        Operator                 to check for a
              received in the                           into
                                                                                   keys dates                  valid case
                Mailroom                              OASIS                       into T-Cup                    number



                            Claims                                                                            Electgronic
                           Examiner                                                                           case file is
                          approves or                                                                         accessed by
                          denies claim                                                                          the CE




                        Claims Examiners
                         key approved or
                        denied status into
                              ACPS
                                                     Claim
          Claim
                                                    Accepted
          Denied


              Claimant is                                                                                                        ACPS stores
                                           ACPS access
            notified of case                                           Payment is               Payment is certified               approved
                                               CMF to
                                                                        set up by                  by a SrCE or                  payments for
             determination                 ensure case
                                                                           CE                       equivalent                     overnight
                                            file number
                                                                                                                                 transmission
                                               is valid                                                                           to National
                                                                                                                                  mainframe




                                                               District office                  Mainframe
                          CE approves or                     personnel receives                 transmits                     Mainframe receives
                            does not                             CP-40 and                       payment                       payment data and
                             approve                            distributes to                    data to                     calculates payment
                            payment                                                               district                         schedule
                                                             Claims Examiners
                                                                                                  office


 Denied                                                   Approved



          Claims Examiner                  Approved
                                         payments are                         Payments not
            re-inputs case                                                                                                Payment
                                          submitted to                         changed are
          and resubmits for                                                                                            information is
                                         Senior Claims                          considered                             transmitted to
              processing                 Examiner for                           acceptable
                                                                                                                          treasury
                                          verification




                                                                         37
                                     SECTION IIIB
               DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                              POLICIES AND PROCEDURES
Processing of Medical Payments

                              Bill is
   Bill is received in         date               Bill is received
    district office          stamped               by data entry          Data entry
       mailroom             by district              personnel          personnel key
                              office                                    payment into
                            personnel                                       BPS




                                                          BPS           BPS accesses
                                                       performs         CMF to verify
                                                      edit checks        case number




                                                   BPS processes
                                                   disposition of
                                                    edit checks




                          SUSPENDED                 APPROVED                   DENIED




                         Suspended Items        Approved payments             Notice sent to
                             Report              are transmitted to         provider of denial
                                                National Mainframe          and appeal rights
                                                     overnight


    Approved               Suspended
                             bills are            Payment data is
                            reviewed            received in National
                             by Bill                   Office
                            Resolver

                                                Payment is generated
                                                 and sent to provider



                           Bill resolver
                           approves or                                        Denied
                         denies payment




                                           38
                                   SECTION IIIB
                DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                            POLICIES AND PROCEDURES

Computer-Generated Reports

BPS generates a summary report on a weekly basis. The report is a history of bill payments for the
week. This report can be utilized for investigative purposes as well as for confirming whether a
particular bill has been paid.

The ACPS generates a summary report on a daily basis which is a history of compensation payments.
This report can be utilized for investigative purposes as well as for confirming whether a particular
claim has been paid. The mainframe transmits updated ACPS History Files to the District offices
where they are available for query purposes for 6 months. The mainframe retains the history files for
query purposes for 2 years before they are archived.

Chargeback System

The ACPS and BPS system history files are combined on a quarterly and annual basis to create the
FECA Chargeback Report. The FECA Chargeback System (CBS) generates financial data that is
provided to DOL’s core financial management system, DOLAR$. CBS provides methods for tracking
accounts receivable - intra-governmental activity while maintaining all financial data centrally in
DOLAR$. The June 30 year end FECA Chargeback Report is used to annually bill Federal agencies
for payments made on their behalf for the period July 1 to June 30. The Office of Management and
Planning (OMAP) provides quarterly benefit summaries to Federal agencies based on the FECA CBS.

The On- line Payment and Collection System (OPAC) is utilized to facilitate the electronic billing
between Federal agencies through Treasury. OPAC's main responsibility is to process the SF-1081s.
SF-1081 (Voucher and Schedule of Withdrawals and Credits) is a form which authorizes the transfer
of expenses or income from one Federal agency's appropriation to another for services rendered. The
receivables are tracked in an internally maintained subsidiary ledger maintained by OMAP.

Third Party Settlements

An injury or death for which compensation is payable to a FECA claimant that is caused under
circumstances creating a legal liability on a person or persons other than the United States (a third
party) to pay damages will result in the case being classified as a third party case. Status codes are
used to track the progress of third party cases in the Case Management File System. OWCP usually
requires the claimant to pursue legal action; however, the United States can pursue action on its own
by requiring the beneficiary to assign rights of action to the United States.

A letter (CA-1045) is sent to a claimant by the claims examiner when initial injury reports indicate a
potential third party. The CA-1045 requests information about the injury, the third party and the
actions taken by the claimant in regards to pursuing a claim against the third party, including the
hiring of an attorney.


                                                 39
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

When the CE receives a reply to the CA-1045 (or does not receive a reply 30 days after the second
request is sent to the claimant) or obtains the name and address of the attorney representing the
claimant, the case is processed by the claims examiner in the smaller district offices or referred to a
designated claims examiner (DCE) in the larger district offices.

A case may be closed as "minor" and not pursued if the claimant has an injury where the total medical
bills, compensation and time lost from work do not exceed or are expected not to exceed $1,000.
Additionally, a case may only be closed as "minor" if the claimant has not responded to the CA-1045,
or has responded but is not personally asserting a third party claim and has not retained an attorney.

The DCE refers the case to the appropriate DOL, Solicitor (SOL) in the following instances:
•       the case is not minor and advice is received that the claimant is negotiating a settlement.
•       advice is received that the claimant has retained an attorney to handle the third party action,
        regardless of the amount of disbursements.
•       the case is not minor and the claimant refuses to pursue the third party claim or does not
        reply to the CA-1045.
•       the third party case involves a death claim, a permanent disability, Job Corps, Peace Corps,
        VISTA, an injury occurring outside the United States or Canada, a common carrier as the
        potential defendant, malpractice, product liability or an injury to more than one employee.

Once referred to SOL, the DCE performs certain actions to ensure that the case is properly tracked
while at SOL. For instance, after the initial referral, an updated disbursement statement is furnished to
the SOL within 5 working days of receipt of the request. It is essential that initiation of, termination
of, or changes in periodic roll payments be reported to the SOL immediately. Additionally, the DCE
requests a status report from the SOL at 6- month intervals.

When a settlement is reached in a third party case, the DCE prepares a Form CA-164 which is a
summary of all disbursements made to the claimant for compensation payments and to medical
providers on the claimants behalf, and forwards it to the fiscal section. If an amount owed from the
claimant is received by OWCP, the amount is credited against the ACPS and BPS, as appropriate. By
recording the amount in the ACPS and BPS, the proper employing agency is credited with the
amounts recovered from third party settlements.

If the full amount of the third party refund is not received from the claimant, an accounts receivable
balance is set up for the amount still due. If the amount recovered exceeds the amount already paid by
OWCP to the claimant for compensation and medical benefits, then the excess amount is recorded and
tracked in the case file to prohibit any additional benefits from being paid to the claimant until the
amount of eligible benefits to the claimant exceeds the excess amount.




                                                   40
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

OVERVIEW OF COMPUTER INFORMATION SYSTEMS

The computerized accounting system used by the Federal Employee's Compensation Special Benefit
Fund maintains all of the data for each of the claimants applying for FECA benefits. The Federal
Employees' Compensation Systems (FECS) is the electronic data processing system for FECA
benefits. This computer system is comprised of the following five subsystems:

          •   Automated Compensation Payment System
          •   Medical Bill Processing System
          •   Case Management File
          •   Debt Management System
          •   Chargeback System

The FECS provides authorized users with on- line access to the various subsystems for file
maintenance and information purposes. Access to the FECS through computer terminals located in
both the national and 12 District offices permits authorized users to perform a variety of functions,
such as query, add, and update claims data, track claims and overpayments, calculate retroactive
benefit payments and enroll approved claimants for benefits on the FECS.

In addition to storing information relevant to claims adjudication, benefit entitlement and payment
status, the FECS generates reports primarily used by management in administering the FECA
Program. The system also processes payments for covered medical expenses and monthly and
supplemental benefit payments to or on behalf of program beneficiaries.

Access to the FECS is limited to only certain employees, and their degree of access is based upon the
user's function within the program. The FECA EDP security officer within the Branch of ADP
Coordination and Control is responsible for assigning passwords and other procedures required to
permit access to the FECS at the national office; District Systems Managers are responsible for
assigning passwords and other procedures required to permit access to the FECS at the District office
level. Controls to restrict access to FECS to authorized personnel include the following (national and
district office level):

          • A security briefing is given for each person having access to the system.
          • Access and an access profile for authorized users are established through a security
            software package (Access Control Facility).
          • Computer Information Control System establishes terminal access to the host computer.
          • Log on attempts are restricted to three attempts.
          • An audit trail report of unauthorized attempts to access the system is available.
          • Terminals are secured in locked rooms at the end of the work day.
          • Written procedures exist for both physical hardware and software security.



                                                 41
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

Organization and Administration

A System Administrator is responsible for overseeing all the data processing activity of FECS. DFEC
employs approximately seven individuals within the Branch of ADP Coordination and Control and
has contracts with outside computer consulting firms, Affiliated Computer Services, Inc. (ACS), and
Viatech through which approximately 30 individuals work with DFEC. ACS and Viatech provide
software development and maintenance for DFEC.

At each District office, a System Manager is responsible for overseeing all the data processing activity
performed at the district level (including user access). The System Managers are under the
supervision of the Division of Information Technology Management and Services (DITMS). DITMS
includes both Federal Government employees and outside contractors. The System Managers have
access to system data for report generation and submission purposes. The System Managers can only
extract information from the database and cannot change any of the source codes (i.e., programs).

The function of DITMS is to maintain computer networks, operating systems, and computer hardware
systems for the DOL environment. DITMS installs all of the data processing applications and
modifications developed by DF EC. In addition, DITMS is responsible for the management controls
surrounding the host mainframe application of FECS, such as assignment and maintenance of system
support personnel to the mainframe and access violations monitoring.

Operations

The Office of the Assistant Secretary for Administration and Management contracted with SunGard
ESourcing, Inc. (SunGard), for computer mainframe time-sharing services. SunGard provides
computer hardware and a communications network between the national office, the district offices and
the U. S. Treasury. In addition, SunGard maintains a tape library and disk drive backup. The
SunGard database includes all medical and disability compensation payment information since 1978.

There are four levels of hardware, software, communications, supplies and facility resources for
DFEC: SunGard mainframe, national office Sequent minicomputers, district office Sequent
minicomputers and the user and programmer development terminal personal computers with
authorized access into the mainframe or minicomputer system.

There are formal operator and user manuals for some components of the system. There are extensive
input edit checks in the software. Errors are automatically rejected by the system and queued for
review by the appropriate individuals. Reports that track the errors, including aging information, are
routinely produced.




                                                  42
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

Documentation

Hardware : DITMS maintains an extensive list of the hardware used in the FECS processing at all
sites.

Software : DITMS maintains an extensive list of the third party software used in the FECS processing
which includes operating system software, compilers and utilities. DFEC is responsible for the
maintenance of FECS application software. All the hardware and software modifications are
controlled by DOL. OWCP requests the modifications, DFEC designs and tests the modification, and
DITMS installs the modifications.

Acceptance testing is performed by DOL using an environment that closely copies the development
environment. The procedures used for the acceptance testing varies according to subsystem. No
formal documentation of the acceptance testing is maintained. However, DFEC maintains a history of
all prior source code versions which provides evidence of all modifications of the source code.

The System Administrator has an assistant responsible for computer design development,
programming and analysis. Another assistant of the System Administrator is responsible for
evaluating the testing of all new and modified source codes (programming) and the distribution to the
district offices. Additionally, this assistant supervises all staff programmers.

Anti-Virus Control

The FECS currently runs a variety of anti- virus or virus checking routines. Each file server runs an
anti-virus module resident on the server. The local area networks (LANs) are "dustless" LANs. When
disks are scanned (e.g., for the installation of new software), anti- virus software is used to scan disks
to identify and remove viruses. Personal computers attached to LANs in OWCP District offices
utilize hard drives in addition to the central file server. All of the personal computers utilize an anti-
virus software and can be run in a scheduled or unscheduled ad hoc mode.

Subservicer

DFEC utilizes a subservicer, SunGard eSourcing, Inc. (Sungard), to provide computer hardware and a
communications network between the national office, the District offices and the U.S. Treasury, to
maintain a tape library and disk drive backup and for other computer mainframe functions.




                                                   43
                                    SECTION IIIB
                 DIVISION OF FEDERAL EMPLOYEES' COMPENSATION’S
                             POLICIES AND PROCEDURES

CONTROL OBJECTIVES AND RELATED POLICIES AND PROCEDURES

DFEC's control objectives and related policies and procedures are included in Section IIIC of this
report, "Information Provided by the Service Auditor," to eliminate the redundancy that would result
from listing them here. Although the control objectives and related policies and procedures are
included in Section IIIC, they are, nevertheless, an integral part of DFEC's description of policies and
procedures.

USER CONTROL CONSIDERATIONS

DFEC's processing of transactions and the control policies and procedures over the processing of
transactions were designed with the assumption that certain internal control policies and procedures
should be in operation at user organizations to complement the control policies and procedures at
DFEC. User auditors should determine whether user organizations have established internal control
policies and procedures to ensure that:
•     Employing agencies understand their responsibilities under FECA.
•     Employing agencies provide injured employees with accurate and appropriate information
      regarding injuries covered under FECA, including the employees' rights and obligations and
      claim forms.
•     Employing agencies timely and accurately report all work-related injuries and deaths to DFEC
      via the injury and death reporting forms such as the CA-1, CA-2, and CA-5, once completed by
      injured employee or claimant in the case of death. Supervisors should encourage persons
      witnessing injuries to record and report what was witnessed to DFEC.
•     Employing agencies provide complete and accurate information regarding a claimant’s rate of
      pay, hours worked, leave taken, and continuation of pay to DFEC.
•     Employing agencies promptly controvert questionable claims.
•     Employing agencies monitor the medical status of injured employees to be aware of what work
      the injured employee is capable of to enable the employing agency to provide additional
      information on the requirements of a position, or modified position, when applicable.
•     Employing agencies assist DFEC in returning employees to work by establishing or identifying
      positions, either modified or light-duty, to return the injured employee to work as early as
      possible. The Employing agency also needs to inform DFEC directly of the positions available.
•     Employing agencies review the chargeback coding notification (postcard) sent by DFEC when
      an injury report is received to ensure the individual will be charged to the proper agency and
      department.
•     Employing agencies review quarterly chargeback billings to ensure that each injured employee
      charged to their department and agency are employees or former employees of the agency, and
      that the amounts charged for compensation costs appear reasonable in light of the injured
      employee's compensation and the date of injury.




                                                  44
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR


This report is intended to provide users of the FECA Special Benefit Fund with information about the
control policies and procedures at the DFEC that may affect the processing of user organizations'
transactions, general computer controls and also to provide users with information about the operating
effectiveness of the policies and procedures that were tested. This report, when combined with an
understanding and assessment of the internal control policies and procedures at user organizatio ns, is
intended to assist user auditors in (1) planning the audit of the user organizations' financial statements
and (2) assessing control risk for assertions in user organizations' financial statements that may be
affected by policies and procedures at DFEC.

Our testing of DFEC's internal control policies and procedures was restricted to the control objectives
and the related policies and procedures listed in this section of the report and was not extended to
procedures described in Section IIIB but not included in this section or to procedures that may be in
effect at user organizations. It is each user auditor's responsibility to evaluate this information in
relation to the internal control policies and procedures in place at each user organization. If certain
complementary controls are not in place at user organizations, DFEC's internal control policies and
procedures may not compensate for such weaknesses.

TESTS OF CONTROL ENVIRONMENT ELEMENTS

The control environment represents the collective effect of various elements in establishing, enhancing
or mitigating the effectiveness of specific policies and procedures. In addition to tests of operating
effectiveness of the policies and procedures listed in this section of this report, our procedures also
included tests of and consideration of the relevant elements of the DFEC's control environment
including:

          DFEC's organizational structure and the segregation of duties
          Management control methods
          Management policies and procedures

Such tests included inquiry of appropriate management, supervisory, and staff personnel; inspection of
DFEC's documents and records; observation of DFEC's activities and operations; and a limited review
and evaluation of SunGard's, the subservicer, most recent SAS 70 report, issued for the period from
October 1, 2000 to September 30, 2001. The results of these tests were considered in planning the
nature, timing, and extent of our tests of the specified control policies and procedures related to the
control objectives described within this report.




                                                   45
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR


SAMPLING METHODOLOGY

To facilitate the testing of transaction processing controls, we developed a sampling plan as outlined
below.

We performed tests on a sample of compensation for lost wages, schedule awards, death benefits and
medical benefit payments paid during the period October 1, 2001 to April 30, 2002, at 5 of 12 District
offices. The sample design involved a two stage process.

The first stage in our sample design was the selection of district offices. District offices were
randomly selected by first forming two strata of the districts and then taking all the districts from the
first strata, and selecting two districts from the second strata. This procedure resulted in the selection
of five district offices. The 5 district offices comprised approximately $758 million of the
$1.354 billion or 56 percent, of FECA payments during the seven month period ended April 30, 2002.

The second stage of the sample design was the selection of sampling units. The sampling units were a
medical bill or the total compensation payments paid to a single case number. The universe of the
sample districts was stratified into 13 strata for the compensation payments and into 12 strata for the
medical payments. The sample size was determined for each of the 13 strata for compensation and 12
strata for the medical payments using the following parameters:

          The total number of items and dollar value of the strata universe
          The estimated variance within each strata
          A 95% confidence level (5% risk of incorrect acceptance)
          A variable sampling precision (2% to 7%) of the point estimate
          Materiality and tolerable error as defined for FECA benefit payments

Using statistical formulas, these parameters yielded a total sample of 399 items. Of the total sample,
214 were medical payments and 185 were compensation payments. The sample items were then
randomly selected.

Our detailed substantive testing was performed at the following district offices with the following
number of items tested:
                                                                 Number of
          District Office                                     Statistical Items
          New York                                                      79
          Jacksonville                                                  74
          Chicago                                                       72
          San Francisco                                                103
          Seattle                                                       71
          Total                                                        399


                                                   46
                                  SECTION IIIC
                   INFORMATION PROVIDED BY THE SERVICE AUDITOR


Our testing at the district offices consisted of control tests in the following categories:

       Case Creation                                                 Payment Processing
       Initial Eligibility                                           Schedule Awards
       File Maintenance                                              Death Benefits
       Continuing Eligibility - Medical Evidence                     Medical Bill Payment Processing
       Continuing Eligibility - Earnings Information                 Third Party Settlements

The number of sample items for control tests was statistically selected based on the sampling plan
detailed above. The number of sample items tested was determined based on the number of items to
which the test of controls applied. The control tests would not be applicable to some sample items due
to factors such as the age of the injury. Additional testing was performed on items which were
selected in a non-statistical method.

Initial Eligibility Cases

Audit queries were generated which determined all of the cases in which claimants were injured and
began receiving compensation during the sampling period of October 1, 2001 to April 30, 2002. From
a population of 968 initial eligibility cases in the 5 district offices tested, 10 cases per district office,
for a total sample of 50, was selected. We reviewed the case files to ensure that the proper procedures
had been followed in determining whether or not the claimants were eligible to receive benefit
payments and whether benefit payments were paid at the correct amount.

Multiple Claim Payments

Audit queries were generated which compared certain elements of each compensation payment made
during the period October 1, 2001 through April 30, 2002. The query compared case files in which
the social security number was the same for multiple case files. This situation would normally occur
when an employee has suffered more than one injury, as a separate case number is assigned for each
injury. We analyzed the payments to ensure that a claimant was not receiving excessive or
overlapping compensation. We removed from the population of 1,090 multiple claim payments, the
cases tested in previous years which resulted in no errors, and then selected a sample resulting in 50
multiple claim compensation payment items to be tested.




                                                     47
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR


Provider Type

Audit queries were generated which determined medical bill payments made to chiropractors on
claimant cases for which the accepted condition did not involve the back or neck to determine if the
proper provider type was being used and payments were properly supported with specifically required
medical evidence. We then randomly selected 125 cases from a population of 15,780, which met our
query definition, in the district offices in which testwork was to be performed.

Potential Duplicate Medical Payments

Audit queries were generated which determined medical bill payments which appeared to have been
made in duplicate and were over $5,000. We tested all 128 medical bills in the district offices in
which testwork was to be performed.

Third Party

Audit queries were generated which determined all claimants that had a third party status indicator in
the CMF. We then randomly selected 50 cases from a population of 1,811 cases with third party
indicators, active within the past year, in the district offices in which test work was to be performed.

Current Medical Evidence

Audit queries were generated which determined all claimants with a short term liability status, on
which compensation was currently being paid, but for which no medical payments were made in the
past two years, to determine which cases may not have current medical evidence. We then randomly
selected 50 cases from a population of 3,190 cases which met our query definition, in the district
offices in which testwork was to be performed.




                                                  48
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR


Summary of Sample Items

The following sample items were selected for substantive testing of transactions:

Sample Type               New      Jacksonville    Chicago       San         Seattle   Sub-         Sub-    Total
                          York                                Francisco                total        total
Lost Wages (S)             27             23           27        28            20      125
Death (S)                  4              4            4          4            6        22          185
Schedule Award (S)         7              8            7          7            9        38                  399
Medical Bills (S)          41             39           34        64            36          214
Initial Eligibility (N)    10             10           10        10            10              50
                                                                                                            100
Multiple Claim (N)         10             10           10        10            10              50
Provider Type (N)          25             25           25        25            25                    125
Potential Duplicates(N)     5             41           42        31            9                     128



The following sample items were selected for testing of internal controls:


Sample Type               New      Jacksonville    Chicago       San         Seattle   Sub-         Sub-    Total
                          York                                Francisco                total        total
Lost Wages (S)             27             23           27        28            20      125
Death (S)                  4              4            4          4            6        22          185
Schedule Award (S)                                                                                          310
                           7              8            7          7            9        38
Medical Bills (S)          23             25           25        26            26          125
Initial Eligibility (N)    10             10           10        10            10                    50
Third Party (N)            10             10           10        10            10                    50
Current Medical (N)        10             10           10        10            10                    50

(S) – Statistically selected sample
(N) – Non-statistically selected sample




                                                  49
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR


CONTROL OBJECTIVES, RELATED POLICIES AND PROCEDURES, AND TESTS OF
DESCRIBED POLICIES AND PROCEDURES

This section presents the following information provided by the DFEC:

•   The control objectives specified by management of DFEC.

•   The policies and procedures established and specified by DFEC to achieve the specified control
    objectives.

Also included in this section is the following information provided by the service auditor:

•   A description of the tests performed in regard to the described policies and procedures by the
    service auditor to determine whether DFEC's control policies and procedures were operating with
    sufficient effectiveness to achieve stated control objectives.

•   The results of the service auditors' tests of the described policies and procedures.




                                                    50
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         GENERAL COMPUTER CONTROLS


Control Objective: General Computer Controls - Control policies and procedures provide
reasonable assurance that DFEC has generally established computer controls over entity-wide
security, access controls, application software development and change controls, segregation of duties,
systems software, and service continuity.

Description of Policies and Procedures

Entity-wide Security

ESA, of which DFEC is a division, periodically assesses risk through independent risk assessments
that are performed and documented on a regular basis or whenever systems, facilities, or other
conditions change. The risk assessments consider data sensitivity and integrity and range of risks to
the entity's systems and data; and, final risk determinations and related management approvals are
documented and maintained on file.

ESA, of which DFEC is a division, has a security program plan that: covers all major facilities and
operations, has been approved by key affected parties, and covers the topics prescribed by OMB
Circular A-130 (general support systems/major applications): Rules of the system/Application rules,
Training/ Specialized training, Personnel controls/Personnel security, Incident response capability/
Continuity of support/Contingency planning, Technical security/Technical controls, System
interconnection/Information sharing, public access controls, access controls, application software
development and change controls, segregation of duties, systems software, and service continuity.
The plan is reviewed periodically and adjusted to reflect current conditions and risks.

ESA’s security program plan establishes a security management structure with adequate
independence, authority, and expertise. An information systems security manager has been appointed
at an overall level and at appropriate subordinate levels.

The security plan clearly identifies who owns computer-related resources and who is responsible for
managing access to computer resources. Security responsibilities and expected behaviors are clearly
defined for: (1) information resource owners and users (2) information resources management and
data processing personnel (3) senior management (4) security administrators.

ESA has implemented an ongoing security awareness program that includes first-time training for all
new employees, contractors, and users, and periodic refresher training thereafter. Security policies are
distributed to all affected personnel, including system/application rules and expected behaviors.

ESA's incident response capability has the characteristics suggested by industry standards: use of virus
detection software, an understanding of the constituency being served, an educated constituency that
trusts the incident handling team, a means of prompt centralized reporting, response team members
with the necessary knowledge, skills, and abilities, and links to other relevant groups.

                                                  51
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS


For prospective employees, references are contacted and background checks performed. Periodic
reinvestigations are performed at least once every 5 years, consistent with the sensitivity of the
position per criteria from the Office of Personnel Management. Regularly scheduled vacations
exceeding several days are required, and the individual's work is temporarily reassigned. Regular job
or shift rotations are required. Termination and transfer procedures include: exit interview procedures;
return of property, keys, identification cards, passes, etc.; notification to security management of
terminations and prompt revocation of IDs and passwords; immediately escorting terminated
employees out of the entity's facilities; and identifying the period during which non-disclosure
requirements remain in effect.

Skill needs are accurately identified and included in job descriptions, and employees meet these
requirements. A training program has been developed. Employee training and professional
development are documented and monitored.

ESA’s Information Systems security program is subjected to periodic reviews. Major applications
undergo independent review or audit at least every 3 years. Major systems and applications are
accredited by the managers whose missions they support.


              Tests of Described Policies and Procedures:                                  Results of Tests
Reviewed risk assessment policies, the most recent high-level risk         A FECA risk assessment was conducted
assessment, and the objectivity of personnel who performed and reviewed    covering all areas of ESA security. Eight
the assessment.                                                            general areas of vulnerability and five
                                                                           significant threats, along with five safeguards
                                                                           and compensating controls were identified.
                                                                           ESA-FECA has made partial progress
                                                                           resolving these areas of security.
Reviewed the security plan and determined whether the plan covered the     No exceptions were noted.
topics prescribed by OMB Circular A-130 and reviewed any related
documentation which indicated that the security plan had been reviewed
and updated, and was current.
Interviewed the security management staff and security manager to          No exceptions were noted.
determine whether the entity had a security plan and organization chart.
Reviewed documentation supporting or evaluating the security awareness     No exceptions were noted.
program, memos, electronic mail files, or other policy distribution
mechanisms, and personnel files to test whether security awareness
statements are current.
Interviewed data owners and system users to determine what training        Two of 14 newly hired FECA employees had
newly hired employees had received and if they were aware of their         no evidence that training had been completed.
security-related responsibilities.                                         No other exceptions were noted.
Interviewed the security manager, response team members, and system        No exceptions were noted.
users to determine whether an incident response capability has been
implemented.




                                                          52
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS


             Tests of Described Policies and Procedures:                                    Results of Tests
Reviewed documentation supporting incident handling activities.             ESA Management was unable to provide
                                                                            documentation evidencing the existence and
                                                                            operation to support if an incident response
                                                                            capability has been imp lemented.
Reviewed hiring policies, reinvestigation policies, policies on             No exceptions were noted.
confidentiality or security agreements, vacation policies, job rotation
policies, staff assignment records, and other pertinent policies and
procedures.
For a selection of recent hires, inspect personnel records and determine    No exceptions were noted.
whether references have been contacted and background checks
performed. For a selection of sensitive positions, inspect personnel
records and determine whether background reinvestigations have been
performed.
For a selection of users, determine whether confidentiality or security     No exceptions were noted.
agreements are on file. Inspect personnel records to identify individuals
who have not had vacation or sick leave in the past year. Determine who
performed vacationing employee’s work during vacation. For a selection
of terminated or transferred employees examine documentation showing
compliance with policies. Compare a system generated list of users to a
list of active user employees.
Reviewed job descriptions for security management personnel and a           ESA management was unable to provide
selection of other personnel. For a selection of employees, compare         documentation evidencing the existence and
personnel records on education and experience with job descriptions.        operation of controls to support position
Reviewed training program documentation, training records, and other        descriptions for four non-security related
related documentation for selected personnel.                               FECA employees.
Reviewed reports resulting from recent assessments (including the most      No exceptions were noted.
recent FMFIA report), written authorizations or accreditation statements,
and documentation related to corrective actions.
Reviewed the status of prior year audit recommendations to determine if     ESA has implemented corrective action plans.
corrective actions have been implemented.




Access Controls

Classifications and criteria have been established and communicated to resource owners. Resources
are classified based on risk assessments; classifications are documented and approved by an
appropriate senior official and are periodically reviewed.




                                                           53
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         GENERAL COMPUTER CONTROLS


Access authorizations are documented on standard forms and maintained on file, approved by senior
managers, and securely transferred to security managers. Owners periodically review access
authorization listings and determine whether they remain appropriate. The number of users who can
dial into the system from remote locations is limited and justification for such access is documented
and approved by owners.

Security managers review access authorizations and discuss any questionable authorizations with
resource owners. All changes to security profiles by security managers are automatically logged and
periodically reviewed by management independent of the security function. Unusual activity is
investigated. Security is notified immediately when system users are terminated or transferred.

Emergency and temporary access authorizations are documented on standard forms and maintained on
file, approved by appropriate managers, securely communicated to the security function; and
automatically terminated after a predetermined period.

Standard forms are used to document approval for archiving, deleting, or sharing data files. Prior to
sharing data or programs with other entities, agreements are documented regarding how those files are
to be protected. Facilities housing sensitive and critical resources have been identified. All significant
threats to the physical well-being of sensitive and critical resources have been identified and related
risks determined. Access is limited to those individuals who routinely need access through the use of
guards, identification badges, or entry devices, such as key cards. Management regularly reviews the
list of persons with physical access to sensitive facilities. Keys or other access are needed to enter the
computer room and tape/media library. All deposits and withdrawals of tapes and other storage media
from the library are authorized and logged. Unissued keys or other entry devices are secured.
Emergency exit and re-entry procedures ensure that only authorized personnel are allowed to reenter
after fire drills, etc.

Visitors to sensitive areas, such as the main computer room and tape/media library, are formally
signed in and escorted. Entry codes are changed periodically. Visitors, contractors, and maintenance
personnel are authenticated through the use of preplanned appointments and identification checks.
Passwords are unique for specific individuals, not groups; controlled by the assigned user and not
subject to disclosure; changed periodically--every 30 to 90 days; not displayed when entered; at least 6
alphanumeric characters in length; and prohibited from reuse for at least 6 generations. Use of names
or words is prohibited. Vendor-supplied passwords are replaced immediately. Generic user IDs and
passwords are not used. Attempts to log on with invalid passwords are limited to 3 attempts.

Personnel files are automatically matched with actual system users to remove terminated or
transferred employees from the system. Password files are encrypted. For other devices, such as
tokens or key cards, users maintain possession of their individual tokens, cards, etc. and understand
that they must not loan or share these with others and must report lost items immediately.


                                                   54
                                  SECTION IIIC
                   INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          GENERAL COMPUTER CONTROLS


An analysis of the logical access paths is performed whenever system changes are made. Security
software is used to restrict access. Access to security software is restricted to security administrators
only. Computer terminals are automatically logged off after a period of inactivity. Inactive users'
accounts are monitored and removed when not needed. Security administration personnel set
parameters of security software to provide access as authorized and restrict access that has not been
authorized. This includes access to data files, load libraries, batch operational procedures, source
code libraries, security files, and operating system files. Naming conventions are used for resources.

Database management systems (DBMS) and data dictionary controls have been implemented that
restrict access to data files at the logical data view, field, or field-value level; control access to the data
dictionary using security profiles and passwords; maintain audit trails that allow monitoring of
changes to the data dictionary; and provide inquiry and update capabilities from application program
functions, interfacing DBMS or data dic tionary facilities. Use of DBMS utilities is limited. Access
and changes to DBMS software are controlled. Access to security profiles in the data dictionary and
security tables in the DBMS is limited.

Communication software has been implemented to verify terminal identifications in order to restrict
access through specific terminals; verify IDs and passwords for access to specific applications; control
access through connections between systems and terminals; restrict an application's use of network
facilities; protect sensitive data during transmission; automatically disconnect at the end of a session;
maintain network activity logs; restrict access to tables that define network options, resources, and
operator profiles; allow only authorized users to shut down network components; monitor dial- in
access by monitoring the source of calls or by disconnecting and then dialing back at preauthorized
phone numbers; restrict in- house access to telecommunications software; control changes to
telecommunications software; ensure that data are not accessed or modified by an unauthorized user
during transmission or while in temporary storage; and restrict and monitor access to
telecommunications hardware or facilities.

In addition to logical controls: the opening screen viewed by a user provides a warning and states that
the system is for authorized use only and that activity will be monitored, dial- in phone numbers are
not published and are periodically changed, cryptographic tools have been implemented to protect the
integrity and confidentiality of sensitive and critical data and software programs. Procedures have
been implemented to clear sensitive data and software from discarded and transferred equipment and
media. All activity involving access to and modifications of sensitive or critical files is logged.

Security violations and activities, including failed logon attempts, other failed access attempts, and
sensitive activity, are reported to management and investigated. Security managers investigate security
violations and report results to appropriate supervisory and management personnel. Appropriate
disciplinary actions are taken. Violations are summarized and reported to senior management. Access
control policies and techniques are modified when violations and related risk assessments indicate that
such changes are appropriate.

                                                      55
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS



Tests of Described Policies and Procedures                                          Results of Tests
Reviewed policies and procedures and resource classification documentation          No exceptions were noted.
and compared to risk assessments. Discussed any discrepancies with
appropriate officials. Interviewed resource owners.
Reviewed pertinent written policies and procedures. For a selection of users,       The system is not configured to log
(both application user and IS personnel), review access authorization               profile changes. No other exceptions
documentation. Interview owners and review supporting documentation.                were noted.
Determine whether inappropriate access is removed in a timely manner. For a
selection of users with dial-up access, review authorization and justification.
Interview security managers and review documentation provided to them.
Review a selection of recent profile changes and activity logs. Obtain a list of
recently terminated employees from Personnel, and for a selection, determine
whether system access was properly terminated.
Compared a selection of both expired and active temporary and emergency             No exceptions were noted.
authorizations (obtained from the authorizing parties) with a system-generated
list of authorized users. Determine the appropriateness of access
documentation.
Examined standard approval forms and documents authorizing file                     No exceptions were noted.
sharing and file sharing agreements. Interviewed data owners.
Reviewed a diagram of the physical layout of the computer telecommunications No exceptions were noted.
and cooling system facilities. Walk through facilities.
Review access path diagram.                                                         No exceptions were noted.
Observed entries to and exits from the facilities, including sensitive areas during No exceptions were noted.
and after normal business hours, utilities access paths, practices for safeguarding
keys and other devices, appointment and verification procedures for visitors, a
fire drill, users keying in passwords, terminals in use. Observe a fire drill.
Review written emergency procedures.
Interviewed management, employees, guards at facility entry, users and security No exceptions were noted.
managers and database administrator.
Selected from the log some returns and withdrawals, verified the physical           No exceptions were noted.
existence of the tape or other media, and determined whether proper
authorization was obtained for the movement.
Review visitor entry logs. Observe entries to and exits from sensitive areas        No exceptions were noted.
during and after normal business hours. Interview guards at facility entry.
Review documentation on and logs of entry code changes. Observe
appointment and verification procedures for visitors.
Interview users. Review security software parameters. Attempted to log on           No exceptions were noted.
without a valid password; made repeated attempts to guess passwords.
Attempted to log on using common vendor supplied passwords. Searched
password file using audit software. Assessed procedures for generating and
communicating passwords to users. Review security logs. Interview security.
Interview security administrators and system users. Review security software        ESA’s network does not have an idle
parameters. Observe terminal in use. Determine whether naming conventions           time network log out feature activated.
are used.                                                                           No other exceptions were noted.




                                                            56
                                     SECTION IIIC
                      INFORMATION PROVIDED BY THE SERVICE AUDITOR
                             GENERAL COMPUTER CONTROLS


Tests of Described Policies and Procedures                                           Results of Tests
Reviewed pertinent policies and procedures. Reviewed parameters set by               No exceptions were noted.
telecommunications software or teleprocessing monitors. Tested
telecommunications controls by attempting to access various files through
communications networks. Identified all dial-up lines through automatic dialer
software routines and compare with known dial-up access. Interviewed
telecommunications management staff and users. View the opening screen by
telecommunication system users. Run entity’s telephone directory to verify that
numbers are not listed.
Reviewed written procedures. Interviewed personnel responsible for clearing          No exceptions were noted.
equipment and media. For a selection of recently discarded or transferred items,
examined documentation related to clearing of data and software.
Reviewed security software settings to identify types of activity logged, security   Security violations have not been
violation reports and documentation showing reviews of questionable activities.      documented. ESA has a Computer
Tested a selection of security violations to verify that follow-up investigations    Security Incident Response and
were performed and to determine what actions were taken against the                  Reporting Manual, but was unable to
perpetrator. Evaluate cryptographic tools.                                           provide documentation evidencing the
                                                                                     controls.
Interviewed senior management and personnel responsible for summarizing              Security violations have not been
violations and reviewed supporting documentation.                                    documented. ESA has a Computer
                                                                                     Security Incident Response and
                                                                                     Reporting Manual, but was unable to
                                                                                     provide documentation evidencing the
                                                                                     controls.

Application Software Development and Change Control

System Development Life Cycle (SDLC) methodology has been developed that provides a structured
approach consistent with generally accepted concepts and practices, including active user involvement
throughout the process, is sufficiently documented to provide guidance to staff with varying levels of
skill and experience, provides a means of controlling changes in requirements that occur over the
system's life, and includes documentation requirements.        Program staff and staff involved in
developing and testing software have been trained and are familiar with the use of the organization's
SDLC methodology.

Software change request forms are used to document requests and related approvals. Change requests
must be approved by both system users and data processing staff. Clear policies restricting the use of
personal and public domain software have been developed and are enforced. DFEC uses virus
identification software.

Test plan standards have been developed for all levels of testing that define responsibilities for each
party (e.g., users, system analysts, programmers, auditors, quality assurance, library control). Detailed
system specifications are prepared by the programmer and reviewed by a programming supervisor.
Software changes are documented so that they can be traced from authorization to the final approved
code and they facilitate "trace-back" of code to design specifications and functional requirements by
system testers. Test plans are documented and approved that define responsibilities for each party
                                                             57
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS


involved (e.g., users, systems analysts, programmers, auditors, quality assurance, library control).
Unit, integration, and system testing are performed and approved in accordance with the test plan and
applying a sufficient range of valid and invalid conditions.

A comprehensive set of test transactions and data has been developed that represents the various
activities and conditions that will be encountered in processing. Live data is not used in testing
program changes, except to build test data files. Test results are reviewed and documented. Program
changes are moved into production only upon documented approval from users and system
development management.

Documentation is updated for software, hardware, operating personnel, and system users when a new
or modified system is implemented. Data center management and/or the security administrators
periodically review production program changes to determine whether access controls and change
controls have been followed.

Emergency changes are documented and approved by the operations supervisor, formally reported to
computer operations management for follow-up, and approved after the fact by programming
supervisors and user manage ment.

Standardized procedures are used to distribute new software for implementation. Implementation
orders, including effective date, are provided to all locations where they are maintained on file.
Library management software is used to produce audit trails of program changes, maintain program
version numbers, record and report program changes, maintain creation/date information for
production modules, maintain copies of previous version, and control concurrent updates.

Tests of Described Policies and Procedures                                          Results of Tests
Reviewed the SAS #70 Report from SunGard eSourcing, Inc., the subservicer,          No exceptions were noted.
to determine whether the following application software development and
change controls existed at SunGard:
• Inquired as to the procedures management has implemented to control tape
     management.
• Observed the tapes in the computer room and tape storage area noting the
     unique identification of tapes with labels and bar codes.
• Observed the I/O Manager mounting an incorrect tape on the system noting
     the tape management system issued an error message indicating an
     incorrect tape mount. Observed the Manager mount a correct tape and the
     system begin to process the tape.
• Inspected the daily scratch tape listing and noted the report contained the
     volser number, dataset name, creation date, and expiry time and date of
     tapes that would be scratched.
• Observed the transfer of tapes off-site noting a third-party courier service is
     used to transport tapes to the off-site tape storage facility.
• Observed the contents of a box prepared to ship off-site noting the box
     contained magnetic tapes as well as distribution, inventory, and transaction
     sheets.
                                                            58
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS


Tests of Described Policies and Procedures                                        Results of Tests
• Inspected the transaction sheets noting proper sign-off by SunGard staff and
    the off-site data storage vendor.
• Inquired of the I/O Manager as to procedures for the tape librarian to
    compare the tapes returned from the off-site facility to the inventory list
    from the tape management system and investigate differences.
• Observed the Foreign Tape Utilities on-line noting that all changes to the
    system are logged by the audit trail.
• Inspected a sample of tape mail requests noting proper documentation and
    authorization for the delivery and release of
   tapes, including requesting company, destination, request
   status and datas et name.
• Toured the Receiving Area and inspected the Receiving log noting that all
    packages received are signed-off by SunGard personnel.
• Inquired as to the operation of these procedures throughout the test period.

System Software

Policies and procedures for restricting access to systems software are kept up-to-date. Access to
system software is restricted to a limited number of personnel, corresponding to job responsibilities.
Application programmers and computer operators are specifically prohibited from accessing system
software. Documentation showing justification and management approval for access to system
software is kept on file. The access capabilities of system programmers are periodically reviewed for
propriety to see that access permissions correspond with job duties.

Policies and procedures for using and monitoring use of system software utilities are kept up-to-date.
Responsibilities for using sensitive system utilities have been clearly defined and are understood by
systems programmers. Responsibilities for monitoring use are defined and understood by technical
management. The use of sensitive system utilities is logged using access control software reports or
job accounting data (e.g., IBM's System Manageme nt Facility).

The use of privileged system software and utilities is reviewed by technical management.
Inappropriate or unusual activity in using utilities is investigated. System programmers' activities are
monitored and reviewed. Management reviews are performed to determine that control techniques for
monitoring use of sensitive system software are functioning as intended and that the control
techniques in place are maintaining risks within acceptable levels (e.g., periodic risk assessments).

Policies and procedures are kept up-to-date for identifying, selecting, installing, and modifying system
software. Procedures include an analysis of costs and benefits and consideration of the impact on
processing reliability and security. Procedures exist for identifying and documenting system software
problems. This should include using a log to record the problem, the name of the individual assigned
to analyze the problem, and how the problem was resolved.



                                                           59
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS


New system software versions or products and modifications to existing system software receive
proper authorization and are supported by a change request. New system software versions or
products and modifications to existing system software are tested and the test results are approved
before implementation.

Procedures include: a written standard that guides the testing, which is conducted in a test rather than
production environment; specification of the optional security-related features to be turned on, when
appropriate; review of test results by technically qualified staff who document their opinion on
whether the system software is ready for production use; and review of test results and documented
opinions by data center management prior to granting approval to move the system software into
production use.

Procedures exist for controlling emergency changes. Procedures include:       authorizing and
documenting emergency changes as they occur; reporting the changes for management review; and
review by an independent IS supervisor of the change.

Installation of system software is scheduled to minimize the impact on data processing and advance
notice is given to system users. Migration of tested and approved system software to production use is
performed by an independent library control group. Outdated versions of system software are
removed from production libraries. Installation of all system software is logged to establish an audit
trail and reviewed by data center management. Vendor-supplied system software is still supported by
the vendor. All system software is current and has current and complete documentation.

Tests of Described Policies and Procedures                                         Results of Tests
Reviewed the SAS #70 Report from SunGard eSourcing, Inc., the subservicer,         No exceptions were noted.
to determine whether the following system software controls exist at SunGard:
• Inquired as to the procedures management has implemented to control
     changes or updates to systems software.
• Inspected the SunGard Software Maintenance Policy and Procedure
     document.
• Inspected SunGard’s Production Software Listing noting the system
     software listed reflects current versions of software that are supported by
     the vendor.
• Inspected the SunGard Software Maintenance and Upgrade Schedule noting
     that the procedures documented in this plan were the procedures
     documented in Peregrine Service Center for the change requests selected.
• Identified a select number of system software change requests noting that
     the change requests were entered in Peregrine Service Center and detailed
     information supporting the change request was documented in Peregrine
     Service Center.
• Observed on-line that the change requests selected were prioritized based
     upon criticality and were closed within one day of requested
     implementation.
• Inspected a sample of problems reported by clients and software change
     requests noting the change history was documented in detail in the

                                                           60
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS


Tests of Described Policies and Procedures                                         Results of Tests
    Peregrine Service Center database, including the requesting client, affected
    system, target date, staff who made the change, change status, and
    description of the problem and action. Also noted the following:
  (a) They were assigned priority levels, such as critical, limited, and
         impacting and resolved in a timely manner.
  (b) Requests are received by Customer Service and approved by the
         appropriate department manager.
  (c) All changes are adequately tested and moved to a development library
         before being migrated to production.

•   Noted that the above problems were responded to within 24 hours, followed
    up within 48 hours and eventually resolved.
•   Observed an inspected Peregrine Service Center on-line noting that the
    Quality Assurance procedures were documented and existed for all change
    requests selected.
•   Inspected the Change Report which is used to communicate to Operations
    personnel the testing and back-out procedures for system software changes.
    For a sample of changes, inspected documented testing and back-out
    procedures and sign-off by Operations personnel indicating the jobs were
    run.
•   Inquired about daily meeting when any open requests are prioritized.
•   Inspected the checklist used during software testing prior to migration into
    production noting that the checklist is used to document software testing
    and complies with the Software Maintenance Plan.
•   Inquired as to the operation of these procedures throughout the test period.

Segregation of Duties

Policies and procedures for segregating duties exist and are up-to-date. Distinct systems support
functions are performed by different individuals, including the following: IS management, system
design, application programming, systems programming, quality assurance/testing, library
management/change management, computer operations, production control and scheduling, data
control, data security, data administration, and network administration.

No individual has complete control over incompatible transaction processing functions. Specifically,
the following combination of functions are not performed by a single individual: data entry and
verification of data, data entry and its reconciliation to output, input of transactions for incompatible
processing functions (e.g., input of vendor invoices and purchasing and receiving information), and
data entry and supervisory authorization functions (e.g., authorizing a rejected transaction to continue
processing that exceeds some limit requiring a supervisor's review and approval).

Data processing personnel are not users of information systems. They and security managers do not
initiate, input, or correct transactions. Day-to-day operating procedures for the data center are
adequately documented and prohibited actions are identified. Regularly scheduled vacations and
periodic job/shift rotations are required
                                                            61
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS



Documented job descriptions accurately reflect assigned duties and responsibilities and segregation of
duty principles. Documented job descriptions include definitions of the technical knowledge, skills,
and abilities required for successful performance in the relevant position and can be used for hiring,
promoting, and performance evaluation purposes.

All employees fully understand their duties and responsibilities and carry out those responsibilities in
accordance to their job descriptions. Senior management is responsible for providing adequate
resources and training to ensure that segregation of duty principles are understood and established,
enforced, and institutionalized within the organization. Responsibilities for restricting access by job
positions in key operating and programming activities are clearly defined, understood, and followed.

Staff's performance is monitored on a periodic basis and controlled to ensure that objectives laid out in
job descriptions are carried out. Management reviews are performed to determine that control
techniques for segregating incompatible duties are functioning as intended and that the control
techniques in place are maintaining risks within acceptable levels (e.g., periodic risk assessments).

Detailed, written instructions exist and are followed for the performance of work. Operator instruction
manuals provide guidance on system operation. Application run manuals provide instruction on
operating specific applications. Operators are prevented from overriding file label or equipment error
messages.

Personnel are provided adequate supervision and review, including each shift for computer operations.
All operator activities on the computer system are recorded on an automated history log. Supervisors
routinely review the history log and investigate any abnormalities. System startup is monitored and
performed by authorized personnel. Parameters set during the initial program load (IPL) are in
accordance with established procedures.

Tests of Described Policies and Procedures                                           Results of Tests
Reviewed the SAS #70 Report from SunGard eSourcing, Inc., the subservicer,           No exceptions were noted.
to determine whether the following segregation of duties controls exist at
SunGard:

•   Inquired as to the procedures management has implemented to control
    physical access to the data center.

•   Inspected the physical access card listing noting the different levels of
    access to the SunGard facility.

•   For a sample of employees, inquired of the Director of Computer
    Operations as to the appropriateness of their access levels per their assigned
    responsibilities.

•   Observed the logging of card key activities in the Command Center noting

                                                              62
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS


Tests of Described Policies and Procedures                                           Results of Tests
    the log recorded the card key number, doors accessed, and unsuccessful
    attempts.

•   Observed the external access card readers at the main entrance and the
    loading dock noting the doors are locked at all times, doors are monitored
    from the Command Center through the use of video cameras, all access
    card usage is logged in the Command Center and access into the building
    requires access cards.

•   Observed that persons without valid access cards must ring a doorbell or
    call Operations (after hours) to gain access to the facility.

•   Observed the access card readers located inside the data center for the
    network control room, Command center, tape library, and electrical room,
    noting all doors required access cards to gain entrance and all access card
    usage is logged in the Command Center.

•   Inspected the listing of employees terminated during the period and
    determined that terminated employees are removed from the Security
    System for physical access.

•   Observed the monitors in the Command Center noting one dedicated
    monitor for each door and a central monitor which records access based on
    motion detected.

•   Observed the central monitor connected to a video cassette recorder
    recording all activity displayed on the central monitor.

•   Observed the log at the main entrance noting all visitors are required to sign
    in and out of the building.

•   Inquired as to the operation of these procedures throughout the test period.

Service Continuity

ESA has drafted a disaster recovery/business continuity plan which lists critical operations and data
and that prioritizes data and operations, reflects current conditions and identifies and documents
resources supporting critical operations such as computer hardware, computer software, computer
supplies, system documentation, telecommunications, office facilities and supplies, and human
resources. The draft disaster recovery/business continuity plan is expected to be finalized in January
2003.

Within ESA’s draft disaster recovery/business continuity pla n, emergency processing priorities have
been documented. Backup files are created on a prescribed basis and rotated off-site often enough to
avoid disruption if current files are lost or damaged. System and application documentation is
maintained at the off-site storage location. The backup storage site is graphically removed from the
                                                             63
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         GENERAL COMPUTER CONTROLS


primary site, and protected by environmental controls and physical access controls.

Fire suppression and prevention devices have been installed and are working, e.g., smoke detectors,
fire extinguishers, and sprinkler systems. Controls have been implemented to mitigate other disasters,
such as floods, earthquakes, etc. Redundancy exists in the air cooling system. An uninterruptible
power supply or backup generator has been provided so that power will be adequate for orderly shut
down. Environmental controls are periodically tested. Eating, drinking, and other behavior that may
damage computer equipment is prohibited.

All data center employees have received training and understand their emergency roles and
responsibilities. Data center staff receives periodic training in emergency fire, water, and alarm
incident procedures. Emergency response procedures are documented and periodically tested.

Policies and procedures exist and are up-to-date. Routine periodic hardware preventive maintenance
is scheduled and performed in accordance with vendor specifications and in a manner that minimizes
the impact on operations. Regular and unscheduled maintenance performed is documented. Flexibility
exists in the data processing operations to accommodate regular and a reasonable amount of
unscheduled maintenance. Spare or backup hardware is used to provide a high level of system
availability for critical and sensitive applications. Goals are established by senior management on the
availability of data processing and on- line services. Records are maintained on the actual performance
in meeting service schedules.

Problems and delays encountered, the reason, and the elapsed time for resolution are recorded and
analyzed to identify recurring patterns or trends. Senior management periodically reviews and
compares the service performance achieved with the goals and surveys user departments to see if their
needs are being met. Changes of hardware equipment and related software are scheduled to minimize
the impact on operations and users, thus allowing for adequate testing. Advance notification on
hardware changes is given to users so that service is not unexpectedly interrupted.

A contingency plan has been drafted that reflects current conditions, will be approved by key affected
groups including senior management, data center management, and program managers, clearly assigns
responsibilities for recovery, includes detailed instructions for restoring operations (both operating
system and critical applications), identifies the alternate processing facility and the backup storage
facility, includes procedures to follow when the data/service center is unable to receive or transmit
data, identifies critical data files, is detailed enough to be understood by all agency managers, includes
computer and telecommunications hardware compatible with the agencies needs, and has been
distributed to all appropriate personnel.

The plan provides for backup personnel so that it can be implemented independent of specific
individuals. User departments have developed adequate manual/peripheral processing procedures for
use until operations are restored.
Contracts or interagency agreements have been established for a backup data center and other needed
                                                   64
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                            GENERAL COMPUTER CONTROLS


facilities that: are in a state of readiness commensurate with the risks of interrupted operations, have
sufficient processing capacity, and are likely to be available for use. Alternate telecommunication
services have been arranged. Arrangements are planned for travel and lodging of necessary personnel,
if needed.

Tests of Described Policies and Procedures                                         Results of Tests
Reviewed the SAS #70 Report from SunGard eSourcing, Inc., the subservicer,         No exceptions were noted.
to determine whether the following service continuity controls exist at SunGard:
• Inquired as to the procedures management has implemented to monitor
     environmental controls.

•   Toured the main building and the generator building and observed the
    following mechanisms installed at SunGard:
    • Air-condition units;
    • Sprinkler system;
    • Smoke detectors;
    • Water detection units under the raised floor;
    • Sub-floor fire suppression system;
    • Uninterrupted Power Supply (3 units);
    • Battery Banks;
    • 2.5 megawatt diesel generators (2 units);
    • Halon (Manual release/abort button) & FM 200; and
    • Emergency Power Off switches (EPO’s).

•   Inspected the most recent reports for the above systems noting all
    inspections were performed by the vendors at scheduled frequency.

•   Observed the environmental monitoring board (Zone Annunciator Panel or
    Tracetek alarm panel) in the Command Center which identifies troubled
    areas and problems (water or fire) when alarms are signaled.

•   Observed the environmental board (Zone Annunciator Panel or Traceteck
    alarm panel) located by the loading dock door which divides the building
    into zones for fire departments to locate problem areas in emergency.

•   Observed the various monitors in the Command Center used for monitoring
    the facilities.

•   Inquired as to the operation of these procedures throughout the test period.




                                                            65
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS


Transaction processing controls for compensation and medical benefit payments were tested in the
following areas:
       Case Creation                                         Accuracy of Compensation Payments
       Initial Eligibility                                   Schedule Awards
       File Maintenance                                      Death Benefits
       Continuing Eligibility - Medical Evidence             Medical Bill Payment Processing
       Continuing Eligibility - Earnings Information         Third Party Settlements

Control Objective 1: Case Creation - Control policies and procedures provide reasonable assurance
that case files were initially set up properly and information related to the claimant was input into the
computer systems correctly.

Description of Policies and Procedures:

The FECA Procedure Manual 2-401(3) and (4) contains the requirements for proper set up of the case
file and input into the appropriate computer systems.

The manual assigns the duties of keeping the case management file data accurate and up-to-date to the
CE. The case management file is set up by a Case Create Clerk and from this set up, a case number is
assigned and notated on the CA-1 or CA-2. The claim documents are then imaged. Accurate data in
the CMF is essential to ensure that the information used to set up the ACPS is correct. Once the
ACPS is set up for each claimant, all vital data must be updated in both the CMF and ACPS. This
data includes such items as the claimant's name, address, date of birth, social security number and
chargeback code. The CE verifies the accuracy of the information entered by the Case Create Clerk
by comparing Form CA-1, CA-2 or CA-5 completed by the claimant to the information in the CMF.

The employing agency is charged with the responsibility of providing the chargeback code on the
CA-1, CA-2, or CA-5. If the employing agency does not designate a chargeback code, the case
creation clerk determines which chargeback code should be applied. Once the case file is created, a
postcard is sent to the employing agency to confirm the chargeback code. A negative confirmation
process is used.

 Tests of Described Policies and Procedures:                   Results of Tests:

 For a non-statistical sample of 50 case creation items, we    No exceptions were noted.
 compared case originating forms, such as Forms CA-1,
 CA-2 and CA-5, to the information contained in the CMF
 and ACPS to ensure that the case origination process
 resulted in the proper setup of the case files (to include
 agency chargeback codes) and related computer systems
 with current and accurate information.




                                                          66
                                 SECTION IIIC
                  INFORMATION PROVIDED BY THE SERVICE AUDITOR
                       TRANSACTION PROCESSING CONTROLS


Control Objective 2: Initial Eligibility - Control policies and procedures provide reasonable
assurance that each participant met the requirements of 1) time; 2) civil employee; 3) fact of injury;
4) performance of duty; and 5) causal relationship prior to acceptance as an eligible participant.

Description of Policies and Procedures:

An injured worker must satisfy five basic criteria to be eligible for compensation benefits. These
criteria are: 1) time; 2) civil employee; 3) fact of injury; 4) performance of duty; and 5) causal
relationship.

1) Time - The FECA Procedure Manual 2-801(3) contains the requirements for the filing of notice of
injury or occupational disease. A timely notice of injury must be filed for a claimant to be eligible for
compensation payments. The time period filing requirements are specified in 5 U.S.C. 8119. For
injuries on or after September 30, 1974, written notice of injury must be filed within 30 days after the
occurrence of the injury. For injuries occurring between December 7, 1940 and September 6, 1974,
written notice of the injury should be given within 48 hours. The FECA Procedure Manual 2-801(3)
also contains the requirements for filing a compensation claim. A timely compensation claim must be
filed for a claimant to be eligible for compensation payments. The time period filing requirements are
specified in 5 U.S.C. 8122. For injuries on or after September 30, 1974, compensation claims must be
filed within 3 years after the occurrence of the injury. For injuries occurring between December 7,
1940 and September 6, 1974, compensation claims must be filed within 1 year. A few exceptions to
these requirements are allowed.

2) Civil Employee - The FECA Procedure Manual 2-802(2) and (4) contain the requirements for
determining whether an individual meets the second of the five requirements for benefits, being a civil
employee. The definition of a civil employee is in 5 U.S.C. 8101(1). Basically, status as a civil
employee is met when: a) the service performed for the reporting office by the individual was of a
character usually performed by an employee as distinguished from an independent contractor; and b)
that a contract of employment was entered into prior to the injury.

3) Fact of Injury - The FECA Procedure Manual 2-803(3)(a) contains the requirements for the "fact of
injury." The fact of injury consists of two components which must be considered in conjunction with
each other. First is whether the employee actually experienced the accident, event or other
employment factor which is alleged to have occurred; and, second is whether such accident, untoward
event or employment factor caused a personal injury.

The FECA Procedure Manual 2-803(5) contains the requirements for the evidence necessary to
establish the occurrence of an unwitnessed accident. In establishing the fact of injury for an
unwitnessed accident, OWCP should consider the surrounding circumstances. The CE must be able to
visualize the accident and relate the effects of the accident to the injuries sustained by the injured
worker, especially where the claimant delayed seeking medical evidence.

                                                   67
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS


4) Performance of Duty - The FECA Procedure Manual 2-804 contains the requirements for the
performance of duty criterion. The performance of duty criterion is considered after the questions of
"time," "civil employee," and "fact of injury" have been established. Even though an employee may
have been at a fixed place of employment at the time of injury, the injury may not have occurred in the
performance of duty. The employee is generally not covered for travel to and from work. There are
five exceptions to this rule. Statutory exclusions exist under which claims for compensation should be
denied due to the willful misconduct of the employee. These claims are denied even though the
injured worker has met the fact of injury and performance of duty requirements.

5) Causal Relationship - The FECA Procedure Manual 2-805(2) contains the requirements for
obtaining medical evidence necessary to establish a causal relationship between the injury and
employment factors. An injury or disease may be related to employment factors in any of four ways:
a) Direct Causation; b) Aggravation; c) Acceleration; or d) Precipitation.

The FECA Procedure Manual 2-807(17)(d)(2) contains the requirements for the 3-day waiting period
which is required by 5 U.S.C. 8117. An employee is not entitled to compensation for the first 3 days
of temporary disability, except when: a) the disability exceeds 14 days; b) the disability is followed
by permanent disability; or c) claimant is undergoing medical services or vocational rehabilitation
during the 3-day period.

The CEs are required to evaluate the injury reports and supporting medical evidence submitted by
claimants. The injury reports and medical evidence mus t support that the claimant has met the burden
of proof with regards to the five criteria to establish initial eligibility. If the claimant has not
submitted documentation which fully supports the eligibility of the claimant, it is the claims
examiner's responsibility to request such further information as the CE deems necessary. Once a CE
concludes that a claimant is either eligible or not eligible for benefits under the FECA program, the
CE updates the eligibility code in the CMF system. Claimants are notified of the CE's decision with
regards to eligibility. If the claimant disagrees with the CE's decision concerning eligibility, the
claimant may request a hearing for resolution.


 Tests of Described Policies and Procedures:                   Results of Tests:

 For a non-statistical sample of 50 initial eligibility        In 1 of 50 initial eligibility transactions, one case file
 transactions, we reviewed the case file to determine          indicated that the claimant was not in the performance of
 whether the notice of injury was filed timely, whether the    their duties when the injury occurred. No other exceptions
 claimant was a civil employee, whether sufficient evidence    were noted.
 was provided to prove the injury occurred as reported,
 whether sufficient evidence was provided to prove the
 employee was in performance of their duties at the time of
 injury, whether sufficient evidence was provided to prove
 the injury was causally related to employment factors, and
 whether the CE accepted the condition and indicated
 approval of the accepted condition in the case file.

                                                          68
                                     SECTION IIIC
                      INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           TRANSACTION PROCESSING CONTROLS


 Tests of Described Policies and Procedures:                        Results of Tests:

 For a non-statistical sample of 50 initial eligibility             No exceptions were noted.
 transactions, we reviewed the case files to ensure that an
 employee was not paid for the first 3 days of disability
 unless one of the three valid exceptions applied.

Control Objective 3: File Maintenance - Control policies and procedures provide reasonable
assurance that claimant's address and social security number were correct in the ACPS and the
chargeback code was correct in the CMF.

Description of Policies and Procedures:

The FECA Procedure Manual 5-308(5) contains the requirements for updating the ACPS when
corrections are necessary to the claimant's address, social security number and chargeback code.
When a report of injury is first received, a record is created in the CMF. When a request is made for
compensation for lost wages, a schedule award or for death benefits, a complete case record is then
created in the ACPS. The information transferred to the ACPS for the address, social security number
and chargeback code is the information in the CMF at the time the record is created. If any of the
information changes, both the ACPS and the CMF must be updated with the new information.

 Tests of Described Policies and Procedures:                        Results of Tests:

 From a total of 235 cases, for a sample of 185 statistically       In 3 of 185 internal control compensation transactions, the
 selected internal control compensation transactions and 50         claimant’s address was not updated in the CMF. No
 non-statistically selected initial eligibility transactions, we    exceptions were noted in the non-statistical sample. No
 reviewed documentation in the case files to ensure that the        other exceptions were noted.
 social security number, date of birth and the address were
 accurate in the ACPS and CMF.
 From a total of 235 cases, for a sample of 185 statistically       No exceptions were noted.
 selected internal control compensation transactions and 50
 non-statistically selected initial eligibility cases, we
 reviewed documentation in the case files to ensure that the
 chargeback code was accurate in the CMF.

Control Objective 4: Continuing Eligibility (Medical Evidence) - Control policies and procedures
provide reasonable assurance that claimants submitted medical evidence to support continuing
eligibility for compensation and medical benefits.

Description of Policies and Procedures:

The FECA Procedure Manual 2-812(6) contains the requirements for the periodic review of medical
evidence to verify continuing disability. The frequency of the medical review required depends on the
type of compensation the claimant is receiving. Some claimants are required to submit medical
evidence annually and others every 2 or 3 years.
                                                               69
                                     SECTION IIIC
                      INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           TRANSACTION PROCESSING CONTROLS


 Tests of Described Policies and Procedures:                        Results of Tests:

 For a total of 175 cases, from a sample of 125* statistically   In 7 of 115 statistically selected lost wage cases no current
 selected internal control compensation for lost wage cases      medical evidence was contained in the claimant’s case file.
 and 50 non-statistically selected current medical cases, 165    An additional non-statistical sample of 50 current medical
 cases (115 statistical and 50 non-statistical) required         cases, as defined on page 48, was selected. For 22 of 50
 updating of medical evidence within the past year. We           non-statistical current medical cases, medical evidence
 reviewed medical evidence in the case files to ensure that      was not located within the case file. These cases were
 the current medical evidence supported the disability status    typically older injury cases and the lack of medical
 for the compensation being received.                            evidence appeared procedural rather than reflective of
                                                                 improper payments. In 5 of the 7 statistical cases, the
                                                                 claimants were over 70 years old and had been injured at
                                                                 least 23 years. Of the 7 cases, 5 had sustained traumatic
                                                                 injuries to the leg or back, 1 had a mental/emotional
                                                                 condition, and one claimant, 43 years old, had carpal
                                                                 tunnel syndrome, and medical evidence had not been
                                                                 requested in over eight years, which was one year after
                                                                 injury. 18 of the 22 non-statistical cases were for
                                                                 claimants between the ages of 50 and 79 who had all been
                                                                 injured over 10 years. Of the 22 cases, 12 sustained
                                                                 traumatic injuries to the leg or back, 4 had
                                                                 mental/emotional conditions, 2 had contusions and 4 had
                                                                 other injuries. OWCP stated updated medical evidence
                                                                 would be requested from these participants. No other
                                                                 exceptions were noted.
* A statistical sample of 125 claimants were tested for continuing eligibility controls, however, some specific tests did not
apply to all claimants due to the length of time of the claimant's injury, the date of the claim for benefits, or the claimant's
case status. Therefore, the number of tests indicated is the number of items to which tests were actually applied.

Control Objective 5: Continuing Eligibility (Earnings Information) - Control policies and
procedures provide reasonable assurance that claimants submitted earnings information and
authorization to obtain earnings information from Socia l Security to support continuing eligibility for
compensation and medical benefits.

Description of Policies and Procedures:

OWCP mails each claimant a Form CA-1032 each year. The Form CA-1032 asks the claimants to
verify the status of their dependents and report any and all earnings by the claimants. The information
reported by the claimant on Form CA-1032 is to be reviewed by a CE and the compensation rate or
amount adjusted accordingly.

The FECA Procedure Manual 2-812(6) contains the requirements for the frequency with which
claimants must complete Form CA-1032. The FECA Procedure Manual 2-812(10) contains the
requirements for changing the ACPS system when benefit changes are indicated by the claimant on
the Form CA-1032. The ACPS system must be cha nged to reflect the information provided by the
claimant to ensure that benefits are being paid at the proper compensation rate and amount.

                                                               70
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS


The FECA Procedure Manual 2-812(9) and (10) contain the requirements for obtaining a claimant's
earnings report from the SSA. Claimants must provide OWCP with authorization to obtain earnings
information from SSA. OWCP sends the claimants a CA-935, Cover Letter and a CA-936, Request
for Earnings Information request form. Earnings are requested from the SSA on Form CA-1036 to
determine whether an adjustment is needed to a claimant's compensation rates. A claimant's
compensation rate can be adjusted based on the information supplied by the SSA in response to Form
CA-1036. The ACPS system must be changed to reflect the information updated by the SSA to ensure
that benefits are being paid at the proper compensation rate.


 Tests of Described Policies and Procedures:                     Results of Tests:

 From a statistical sample of 163 compensation claimants In 5 of 100 items sampled, CA-1032s had not been
 (125* lost wage cases and 38 schedule award cases), 100 obtained from the claimants to verify earnings and
 cases required current eligibility verification due to the age dependent information within the last year. No other
 of the case. We reviewed the case file to determine exceptions were noted.
 whether a CA-1032 had been requested within the past
 year to verify earnings and dependent information.
 From a statistical sample of 125* lost wage claimants, 80 In 5 of 80 items sampled, a release for authorization to
 cases required current earnings information due to the age obtain earnings information from SSA was not sent to the
 of the case. We reviewed the case file to determine claimants. No other exceptions were noted.
 whether a CA-1036 and CA-936 had been released to the
 claimant to obtain earnings information from SSA in the
 past three years.
 From a statistical sample of 125* lost wage claimants, 30 In 1 of 30 items sampled, the Senior Claims Examiner did
 cases had CA-1036s returned from the claimant that not send a request for earnings information to SSA. No
 should have been sent to SSA for current earnings other exceptions were noted.
 information. We reviewed the case file to determine
 whether the Senior Claims Examiner had requested
 earnings information from SSA.
 From a statistical sample of 163 compensation claimants For the 1 item sampled, the case was not referred to the
 (125* lost wage cases and 38 schedule award cases), in appropriate official once the claimant did not authorize the
 one case file the claimant failed or refused to return the release of earnings information. No other exceptions were
 second request CA-1032 or CA-1036. We reviewed the noted.
 case file to determine whether the case was referred to
 appropriate official if the claimant refused to release
 earnings information.
 From a statistical sample of 163 compensation claimants In 1 of the 28 items samples, the case file was not updated
 (125* lost wage cases and 38 schedule award cases), 28 with the information on the CA-1032 or CA-1036
 cases had CA-1032s or CA-1036s returned with submitted by the claimant. No other exceptions were
 information requiring information be updated in the noted.
 claimant’s case file. We reviewed the case file to
 determine whether the case was update with the
 information reported on the CA-1032 or CA-1036.
*A statistical sample of 125 claimants were tested for continuing eligibility controls and 38 claimants were tested for
schedule awards, however, some specific tests did not apply to all claimants due to the length of time of the claimant's
injury, the date of the claim for benefits, or the claimant's case status. Therefore, the number of tests indicated is the
number of items to which tests were actually applied.

                                                            71
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS



Control Objective 6: Accuracy of Compensation Payments - Control policies and procedures
provide reasonable assurance that components of compensation payments including the correct
compensation percentage, pay rate, number of hours paid, verification of leave without pay status,
absence of dual compensation, proper deduction of Health Benefit Insurance (HBI) and Optional Life
Insurance (OLI), and proper reimbursement of burial bills.

Description of Policies and Procedures:

The FECA Procedure Manual 2-900 contains the requirements for the computation of compensation
where the injury occurred after September 12, 1960. The Branch of Claims Services is responsible for
the computation of compensation payments. The CE is responsible for determining the several factors
used in computing compensation.

The FECA Procedure Manual 2-901 contains the requirements to periodically adjust compensation
payments to reflect the increase in the cost of living. CPI adjustments are automatically calculated by
the ACPS.

 Tests of Described Policies and Procedures:                   Results of Tests:

 For a total of 285 cases, from a statistical sample of 185*   In 5 of 185 statistically selected sample items, claimants
 substantive compensation cases and non-statistical samples    were overpaid a net of $57,319. In 1 of 100 non-
 totaling 100 cases (50 initial eligibility cases and 50       statistically selected sample items, a claimant was
 multiple claim cases), we reviewed documentation in the       overpaid $360. Claimants were overpaid a net of $57,679.
 case files to ensure that the components comprising
 compensation benefits were determined correctly.              The net overpayment resulted from the use of incorrect:
                                                               1 Compensation Percentage                  $ 29,837
                                                               5 Payrates                                   26,495
                                                               1 Compensation Period                          1,327
                                                               1 CPI adjustment on manual payment                20
                                                               Net Overpayment                            $ 57,679
 For a statistical sample of 185* substantive compensation     No exceptions were noted.
 cases and 50 non-statistical cases, 35 cases had
 transactions whereby a single payment was in excess of
 $50,000. We reviewed the transactions over $50,000 to
 ensure the payment was authorized by a senior official at a
 GS-13 or higher.
 For a non-statistical sample of 50 multiple claim cases, we No exceptions were noted.
 reviewed the appropriateness of the receipt of
 compensation for more than one injury for the same period
 of time (multiple claims cases). This concurrent payment
 of benefits is allowable up to certain amounts and in
 certain instances.

* A statistical sample of 185 cases and 100 non-statistical cases were tested for accuracy and proper processing of the
compensation payments. Some specific tests did not apply to all claimants due to the test applying only to payments over
$50,000. Therefore, the number of tests indicated is the number of items to which tests were actually applied.
                                                              72
                                    SECTION IIIC
                     INFORMATION PROVIDED BY THE SERVICE AUDITOR
                          TRANSACTION PROCESSING CONTROLS


Control Objective 7: Schedule Awards - Control policies and procedures provide reasonable
assurance that claimants had reached maximum medical improvement prior to receipt of a schedule
award, medical evidence was obtained, and medical evidence stated the percentage of impairment.

Description of Policies and Procedures:

The FECA Procedure Manual 2-808(6) contains the requirements for supporting a schedule award.
The file must contain competent medical evidence which: 1) shows that the impairment has reached a
permanent and fixed state and indicates the date on which this occurred; 2) describes the impairment
in sufficient detail for the CE to visualize the character and degree of disability; and 3) gives a
percentage evaluation of the impairment. DMAs calculate the percentage of impairment for the
schedule award.

 Tests of Described Policies and Procedures:                   Results of Tests:

 From the statistical sample of 185 compensation items, 38     No exceptions were noted.
 items were for schedule awards, we reviewed
 documentation in the case files to ensure that claimants
 receiving compensation for schedule awards had medical
 evidence in the case files that supported their impairment
 or disability.



Control Objective 8: Death Benefits - Control policies and procedures provide reasonable assurance
that proper notification of death was made; if the DMA requested an autopsy, if needed; if a death
certificate was obtained; if burial bills were obtained; and if dependent information for death benefits
was verified.

Description of Policies and Procedures:

The FECA Procedure Manual 2-700(5) contains the requirements for proper and supporting
documentation for the establishment of death claims and rights of the beneficiary. Some of the
documents that claimants must submit are: 1) death certificates; 2) names and addresses of next of kin;
3) marriage certificates (civil certificates); 4) birth certificates for each child; 5) divorce, dissolution,
or death certificates for prior marriages; and 6) itemized burial bills, receipted, if paid.




                                                          73
                                     SECTION IIIC
                      INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           TRANSACTION PROCESSING CONTROLS


 Tests of Described Policies and Procedures:                          Results of Tests:

 From the statistical sample of 185 compensation items, 22            In 3 of 22 items sampled, a current CA-12 or CA-1615 had
 items were for death benefits, we reviewed documentation             not been obtained from the beneficiaries to verify earnings
 in the case files to ensure that the beneficiaries receiving         and dependent information within the last year. No other
 compensation for death benefits had documentation in the             exceptions were noted.
 case files that established their right as the beneficiaries.

Control Objective 9: Medical Bill Payment Processing - Control policies and procedures provide
reasonable assurance that medical bill payments were properly authorized, approved, input, and
reviewed, as required.

Description of Policies and Procedures:

The FECA Procedure Manual Part 5 provides detailed instructions for use of the BPS:

        Section 200 provides an overview of the system, describes the flow of bills through the office,
        outlines authorities and responsibilities, describes sources of information to be used in bill
        adjudication, and outlines procedures for some functions which support the BPS.

        Section 201 describes keying instructions for the various BPS programs that are available to
        general users, such as CEs, fiscal personnel, keyers and contact representatives.

        Section 202 describes the different BPS jobs which must be run and how to run them. These
        activities are generally carried out by the Systems Manager or operator.

        Section 203 describes the coding schemes used by the BPS.

        Section 204 describes the general rules which underlie bill adjudication.

        Section 205 describes how suspended bills should be resolved.

        Section 206 describes how informal appeals of Explanation of Benefits denial letters and
        formal appeals of fee schedule determinations should be processed.

        Section 207 describes the various BPS reports available, their uses, and how to run them.

        Section 208 describes other activities related to the BPS which are not addressed elsewhere,
        such as tracers, audits, controls and supervisory/management review.




                                                                 74
                                   SECTION IIIC
                    INFORMATION PROVIDED BY THE SERVICE AUDITOR
                         TRANSACTION PROCESSING CONTROLS



Tests of Described Policies and Procedures:                     Results of Tests:

For a total of 467 medical bill payments, from a statistical    In 7 of 214 statistically selected medical bills tested,
sample of 214 substantive medical bill payments and non-        medical providers were overpaid a net of $6,785. In 37 of
statistical samples of 253 medical bill payments (125           253 non-statistically selected sample items, medical
provider type and 128 potential duplicate payments), we         providers were overpaid a net of $208,292. Medical
reviewed the medical bill payments to ensure that bills         providers were overpaid a net of $215,077.
were correctly entered into the BPS; bills contained all
information for proper adjudication; amounts were not           The net overpayment resulted from:
paid in excess of district established limits without proper    15 Incorrect Bypass codes                             $144,822
approval by authorized personnel; discounts were taken, if       6 Incorrect keying of Procedure Codes                  29,136
offered; and hospital bills were for services which were         7 Incorrect keying of Dates of Service                 24,072
considered proper charges against the Special Benefit            5 Bills paid in successive weeks                       13,252
Fund.                                                            1 Detail of hospital bill did not agree to bill paid    2,001
                                                                 1 Incorrect keying of amount                            1,000
                                                                 5 Incorrect provider types                                731
                                                                 1 Convenience item paid                                    36
                                                                 3 Incorrect service zip code                               27
                                                                Net Overpayment                                       $215,077
For a statistical sample of 125 internal control medical bill   In 6 of 125 medical bill transactions, the medical report for
transactions, we reviewed case files to ensure that a           the services provided was not contained in the case file.
medical report was submitted for the services provided,         No other exceptions were noted.
surgery or equipment was approved prior to payment of a
medical bill, when required, and that the medical services
rendered related to the accepted condition.
For a statistical sample of 125 internal control medical bill No exceptions were noted.
transactions, 22 transactions were subject to the Prompt
Payment Act. We reviewed bills which were subject to the
Prompt Payment Act to ensure the bills were paid within
45 days or interest was paid if the bill was paid after 45
days.
We reviewed the guidelines established by the Health Care No exceptions were noted.
Financing Administration and the American Medical
Association and the medical fee schedule data that was
updated in the mainframe computer system from June 1,
2001 through April 30, 2002, to ensure that the
mainframe's "medical fee schedule calculation program"
was correctly updated with the current fee schedule data
and accurately calculating the amounts due to medical
providers.




                                                           75
                                SECTION IIIC
                 INFORMATION PROVIDED BY THE SERVICE AUDITOR
                      TRANSACTION PROCESSING CONTROLS


Control Objective 10: Third Party Settlements - Control policies and procedures provide reasonable
assurance that third party settlements are identified, tracked, and collected.

Description of Policies and Procedures:

The FECA Procedure Manual 2-1100 outlines the procedures for processing third party cases:

      Sections (2) and (3) define authorities and responsibilities involved with third party cases.

      Section (4) describes the letters, forms and status codes used to process and track the progress
      of third party cases.

      Section (5) defines a minor injury.

      Section (7) provides instructions for third party case development by key personnel, such as
      CEs and DCE's.

      Section (8) provides instructions to close out third party cases that are not economical to pursue
      or that would not be successful with further efforts.

      Section (9) lists certain third party cases that are not to be closed by the DCE and should be
      sent to the appropriate SOL.

      Section (10) provides instructions for handling settlement cases where the injury is "minor" and
      the claimant is negotiating or has made a settlement without the benefit of an attorney.

      Section (11) provides instructions for the referral of third party cases to the SOL.

      Section (13) provides instructions for when a settlement has been made or is imminent in third
      party cases referred to the SOL.




                                                  76
                                     SECTION IIIC
                      INFORMATION PROVIDED BY THE SERVICE AUDITOR
                           TRANSACTION PROCESSING CONTROLS



 Tests of Described Policies and Procedures:                      Results of Tests:

 From a non-statistical sample of 50* third party cases, 29       In 1 of 29 third party cases, the CA-1045 was not issued to
 cases required case originating correspondence during the        the claimant. No other exceptions were noted.
 current year. We reviewed these cases to determine
 whether the Letter CA-1045, which requests information
 from the claimant regarding the action taken against a third
 party by the claimant, including the hiring of an attorney,
 was released to the claimant, when necessary, and the
 proper follow-up actions were conducted when the
 claimant did not reply within 30 days.
 From a non-statistical sample of 50* third party cases, 26       In 1 of 26 cases, the appropriate correspondence was not
 cases required correspondence with the claimant’s                released to the claimant’s attorney. No other exceptions
 attorneys during the prior year. We determined whether           were noted.
 the appropriate forms were released to the attorneys of
 claimants involved in third party cases.
 From a non-statistical sample of 50* third party cases, 28       In 5 of 28 third party cases, CA-160s was not issued to the
 cases required refer to the SOL due to the nature of the         solicitor’s office. No other exceptions were noted.
 third party aspect of the case. We determined whether the
 third party cases were referred to the SOL, when required
 and the appropriate actions were taken to track, monitor
 and resolve third party cases through the SOL.
 From a non-statistical sample of 50* third party cases, 11       No exceptions were noted.
 cases required were established in the accounts receivable
 system in the prior year. We determined whether the
 fiscal section properly established account receivables and
 maintained accounting records when third party surpluses
 were created.
 From a non-statistical sample of 50* third party cases, 11       In 1 of 11 third party cases, the claimant was not issued a
 cases required actions pertaining to third party credits or      CA-1120.
 settlements. We determined whether claimants were
 notified when the third party settlement was not in excess
 of the prior compensation suspended via a Letter CA-
 1120.

*A non-statistical sample of 50 third party cases was tested for third party processing. Some specific tests did not apply to
all claimants as only the actions to be taken on the case during the year were tested. Therefore, the number of tests
indicated is the number of items to which tests were actually applied.




                                                             77
